<html>
<title> - H.R. 3558, THE SPECIES PROTECTION AND CONSERVATION OF THE ENVIRONMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
H.R. 3558, THE SPECIES PROTECTION AND CONSERVATION OF THE ENVIRONMENT 
                                  ACT
=======================================================================

                       JOINT LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                           WILDLIFE AND OCEANS

                                and the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                      RECREATION, AND PUBLIC LANDS

                                and the

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 14, 2002

                               __________

                           Serial No. 107-95

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov






                           U.S. GOVERNMENT PRINTING OFFICE
78-207                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 14, 2002...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     6
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    89
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho.........................................     5
    Rahall, Hon. Nick J. II, a Representative in Congress from 
      the State of West Virginia.................................     3
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..     4
        Letters and statements submitted for the record..........    52

Statement of Witnesses:
    Bartuska, Ann M., Ph.D., Executive Director, Invasive Species 
      Initiative, The Nature Conservancy.........................    36
        Prepared statement of....................................    37
    Chavarria, Gabriela, Ph.D., Director of International and 
      Special Programs, National Fish and Wildlife Foundation....    31
        Prepared statement of....................................    32
    Eldredge, Dr. Lucius G., Department of Natural Science, 
      Bishop Museum, Hawaii......................................    40
        Prepared statement of....................................    42
    Kaiser, Janette, Acting Associate Deputy Chief, National 
      Forest System, Forest Service, U.S. Department of 
      Agriculture................................................     7
        Prepared statement of....................................    10
    O'Keeffe, John, Adel, Oregon, on behalf of the National 
      Cattlemen's Beef Association and Public Lands Council......    76
        Prepared statement of....................................    77
    Riley, Dr. Terry Z., Director of Conservation, Wildlife 
      Management Institute.......................................    80
        Prepared statement of....................................    81
    Shannon, John T., State Forester of Arkansas, on behalf of 
      the National Association of State Foresters................    71
        Prepared statement of....................................    73
    Tate, Dr. James, Jr., Science Advisor, U.S. Department of the 
      Interior...................................................    11
        Prepared statement of....................................    13
    Van Putten, Mark, President and CEO, National Wildlife 
      Federation.................................................    21
        Prepared statement of....................................    23


  JOINT LEGISLATIVE HEARING ON H.R. 3558, THE SPECIES PROTECTION AND 
                  CONSERVATION OF THE ENVIRONMENT ACT

                              ----------                              


                        Thursday, March 14, 2002

                     U.S. House of Representatives

Subcommittee on Fisheries Conservation, Wildlife and Oceans, joint with 
                                  the

  Subcommittee on National Parks, Recreation, and Public Lands and the

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everyone. The Subcommittee 
will come to order.
    We are holding a joint legislative hearing this morning on 
H.R. 3558, the Species Protection and Conservation of the 
Environment Act. This legislation is sponsored by the Resources 
Committee Ranking Democratic Member Congressman Nick Rahall. 
Congressman Robert Underwood, the ranking member of the 
Fisheries Subcommittee and I are original cosponsors. It is a 
long overdue attempt to deal with a serious and growing 
problem.
    Mr. Gilchrest. Nuisance non-native species are a threat to 
every corner of the United States and its territories, from 
microbes to mammals. This issue crosses State and national 
jurisdictions to affect us all. The magnitude of this problem 
is enormous. Nonnative species inflict tremendous economic and 
environmental harm. Business, agriculture, fisheries, and most 
importantly our native species suffer as they are outcompeted, 
displaced, preyed upon and, in far too many cases, eradicated 
by those invaders.
    My own congressional district, the First District of 
Maryland, is adversely impacted by a multitude of invasive 
species. Of particular concern are nutria, large semi-aquatic 
rodents native to South America, which is not in my testimony, 
jet skis.
    [Laughter.]
    Mr. Gilchrest. I just throw that out. They disrupt and 
fragment the habitat like the nutria do, actually. Nutria were 
introduced during the 1940's to bolster the fur industry, but 
have established wild populations which cause severe ecological 
damage. This is also not in my testimony, but may be we should 
introduce some black panthers to my district, which they have 
in South America, that reduce the population of nutria, but 
that is not in Nick's bill. Due to their prolific breeding and 
voracious appetite for wetland plants, these animals destroy 
thousands of acres of migratory bird wetland habitat every 
year. In the Black Water refuge, there has been about 7,000 
acres of habitat for migrating water fowl have been destroyed, 
not to mention the other species that live there, including 
muskrat, by these nutria.
    I suspect that each Congress district across the country 
has horror stories about the impact of invasive species, and it 
is for that reason that I was pleased to co-sponsor this 
bipartisan bill. H.R. 3558, the so-called SPACE Act, provides 
grants for the planning and implementation of eradication 
efforts on and adjacent to Federal lands. This program also 
provides a fund for eradication projects using innovative 
technologies in our National Wildlife Refuge System and for the 
establishment of a rapid response capability so that newly 
introduced species can be effectively eliminated before they 
become established.
    I look forward to hearing from our distinguished panel and 
our witnesses on this most pressing issue. This legislation is 
appropriately named because we are entering a new frontier. 
Failure to act is not an option because it may well doom 
various ecosystems throughout the country for centuries to 
come.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good morning, today the Subcommittees on Fisheries Conservation, 
Wildlife and Oceans; National Parks, Recreation and Public Lands; and 
Forests and Forest Health will be holding a joint legislative hearing 
on H.R. 3558, the Species Protection and Conservation of the 
Environment Act. This legislation is sponsored by the Resources 
Committee Ranking Democratic Member Congressman Nick Rahall. 
Congressman Robert Underwood the Ranking Member of the Fisheries 
Subcommittee and I are original cosponsors. It is a long overdue 
attempt to deal with a serious and growing problem.
    Nuisance non-native species are a threat to every corner of the 
U.S. and its territories. From microbes to mammals--this issue crosses 
state and national jurisdictions to affect us all. The magnitude of 
this problem is enormous. Non-native species inflict tremendous 
economic and environmental harm. Businesses, agriculture, fisheries, 
and, most importantly, our native species suffer as they are out 
competed, displaced, preyed upon, and in far too many cases eradicated 
by these invaders.
    My own Congressional district, the first district of Maryland, is 
adversely impacted by a multitude of invasive species. Of particular 
concern are nutria, large semi-aquatic rodents native to South America. 
Nutria were introduced during the 1940s to bolster the fur industry, 
but have established wild populations which cause severe ecologic 
damage. Due to their prolific breeding and voracious appetite for 
wetland plants, these animals destroy thousands of acres of migratory 
bird wetland habitat every year.
    I suspect that each Congressional district across the country has 
horror stories about the impact of invasive species. It is for that 
reason that I was please to cosponsor this bipartisan bill. H.R. 3558, 
the so-called SPACE Act, provides grants for the planning and 
implementation of eradication efforts on and adjacent to Federal lands. 
This program also provides funds for eradication projects using 
innovative technologies in our National Wildlife Refuge System and for 
the establishment of a rapid response capability so that newly 
introduced species can be effectively eliminated before they become 
established.
    I look forward to hearing from our distinguished panel of witnesses 
on this most pressing issue. This legislation is appropriately named 
because we are entering a new frontier. Failure to act is not an option 
because it may well doom various ecosystems throughout the country.
    I am pleased to recognize the distinguished ranking democratic 
member of the Fisheries Subcommittee, Congressman Underwood.
                                 ______
                                 
    Mr. Gilchrest. At this point, I am pleased to recognize the 
gentleman from Guam, Mr. Underwood.
    Mr. Underwood. Why don't I go ahead and yield to the 
ranking member of the Resources Committee.
    Mr. Gilchrest. Mr. Rahall?

   STATEMENT OF THE HON. NICK J. RAHALL, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Chairman, ranking distinguished member, Mr. Underwood, 
harmful, nonnative species or invasive species, as they are 
more commonly called, do represent one of our Nation's most 
critical environmental challenges. According to the National 
Invasive Species Council, approximately 4,200 nonnative species 
are responsible for a $137-billion drain on the national 
economy. Additionally, costs to the natural environment have 
not been estimated, but could be even higher.
    At present, the Federal Government, mostly through the 
Department of Agriculture, spends roughly $1 billion annually 
to implement a variety of invasive species programs. 
Unfortunately, these existing problems are either marginally 
effective, too narrowly focused or of no direct benefit to fish 
and wildlife resources. If anything, despite these programs, 
the condition of our native fish and wildlife resources 
continues to deteriorate as a result of habitat loss, 
competition, and predation by these space invaders. The status 
quo is not working. A new approach is desperately needed or we 
risk losing our fish and wildlife heritage which is enjoyed by 
millions of sportsman and outdoor enthusiasts.
    That is why I introduced H.R. 3558, the Species Protection 
and Conservation of the Environment Act or, as the Chairman has 
said, SPACE Act, along with our distinguished Chairman, Mr. 
Gilchrest, and our distinguished ranking member, Delegate 
Robert Underwood.
    This legislation reflects an entirely new approach which 
incorporates many of the objectives found in the National 
Invasive Species Management Plan. The plan was developed by the 
National Invasive Species Council, as directed by a 1999 
Executive Order.
    At its core, the SPACE Act seeks to promote partnerships 
designed to bring together Federal and other public and private 
landowners to promote efforts to control the infestation and 
migration of invasive species across the landscape. The bill 
would provide vital grant funding and make progress on the 
ground where it counts. This legislation also represents the 
scientific and professional input of the National Invasive 
Species Council of the U.S. Fish and Wildlife Service and other 
State and nongovernmental fish and wildlife conservation 
organizations which was provided through many hours of 
discussion, and I thank each of them.
    The numerous letters of support concerning the SPACE Act 
reaffirms that this legislation is a new idea with merit and a 
true prospect for success. After today's hearing, I believe 
that members of the Subcommittee and the Full Committee will 
come to a similar conclusion.
    Again, I thank you, Mr. Chairman, for your valuable input 
and cosponsorship, as well as our distinguished ranking member, 
Mr. Underwood.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Rahall.
    I was going to yield to Mr. Otter, but he is in the back of 
the room right now.
    I yield to Mr. Underwood.

   STATEMENT OF THE HON. ROBERT A. UNDERWOOD, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman, and good morning, 
all of you. Thank you for holding this very important hearing 
on H.R. 3558, the Species Protection and Conservation of the 
Environment Act.
    I would like to thank the leadership of the Resources 
Committee ranking Democrat, Mr. Rahall, as well as the work of 
Fisheries Subcommittee Chair, Mr. Gilchrest. Their 
collaboration on the SPACE Act demonstrates a truly bipartisan 
approach to these very serious issues.
    The legislation will help protect our Nation, our 
communities, and our environment against the impacts caused by 
the introduction and spread of harmful nonnative species. This 
bill would also provide us with the tools necessary to address 
the threats to native species and disruptions to the native 
ecosystems brought about by the invasions of harmful, nonnative 
species.
    Many in the environmental and scientific communities and 
the general public are familiar with the problems my home 
Island of Guam has faced with the brown tree snake. Brought to 
the island after World War II, the snake has been responsible 
for the extinction of 9 of the 11 species of native birds, half 
of the native lizard species and two native bat species over 
the last 40 years. And apart from the damage to Guam's 
ecological system, there are also economic and social 
implications associated with the snake, which is responsible 
actually for many power outages on the island.
    In order to address this problem, however, I am 
dissatisfied with the manner in how Federal funding has been 
distributed and coordinated by the Department of Interior. 
Funding should not be coming from the Office of Insular 
Affairs, which has one of the smallest budgets in Interior, but 
rather from Fish and Wildlife Service. There is double-digit 
unemployment rates in the territories, including 20 percent in 
Guam. Funding for the brown tree snake and other nonnative 
species should be better coordinated within the Federal 
Government to ensure that funding streams are properly 
identified.
    I know that the concern about nonnative species is shared 
by many members of the Resources Committee and from others 
across the country, including those testifying today. The coast 
of California has been plagued with the European green crab. 
Hawaii's forest habitat is battling miconia. West Virginia has 
had problems with mile-a-minute vines, and in Maryland, nutria 
have become problematic.
    I recommend, Mr. Chairman, you find a more menacing name 
for nutria. It sounds like a nutrition supplement.
    [Laughter.]
    Mr. Underwood. Island environments are particularly 
vulnerable to the devastating effects of nonnative species. In 
1993, the Federal Office of Technology Assessment declared 
Hawaii's alien pest species problem the worst in the Nation. 
Due to the evolutionary isolation of islands from continents, 
endemic species are especially vulnerable to extinction when 
nonnatives invade. This is the same thing that happened to 
Native people when Westerners first came. Those of us with 
knowledge of the peril that Pacific Islands face have a 
responsibility to preserve these environments for future 
generations and to prevent homogenization of the world's 
biodiversity.
    The SPACE Act allows for funding efforts at the local 
level, where it is immediately needed. The bill encourages 
territories, States, Indian tribes and others to form 
partnerships and to confront the problems nonnative species are 
causing and to come up with legitimate assessments and 
priorities of how to deal with these harmful and nonnative 
invaders.
    Funding this act authorizes for the control, the 
eradication of, and the rapid response to harmful nonnative 
species has been shown both to be currently lacking and 
historically justified. The dollars spent today on State 
assessments and pilot programs within the National Wildlife 
Refuge System have the potential to save tenfold the amount 
spent simply by preventing problems before they are out of 
control.
    I encourage my colleagues to fully support this measure for 
both the sake of the environment and the economy. The Federal 
Government must show support of local efforts to control 
harmful nonnative species, which is not just a problem of 
territorial or State Governments, but is truly a national 
problem.
    Thank you. Thank you for your time, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Otter, any opening statement?

STATEMENT OF THE HON. C.L. ``BUTCH'' OTTER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Otter. Thank you, Mr. Chairman, I do have an opening 
statement that I would like to submit for the record, but I 
would like to just make a few comments, without objection.
    Mr. Gilchrest. Without objection.
    Mr. Otter. Idaho is inundated with all kinds of invasive 
species, and as a result of that, we are starting to lose some 
of our Native species, including the Otter, I would say, in 
Idaho, but some of them are now starting to come from the West 
Coast. The metal form problem that we are getting in most of 
our natural lakes, and deep lakes as well, the zebra mussel, 
which is starting to invade our waterways, and in our running 
waterways, in our river and stream systems, purple loosestrife 
from false indigo are starting to choke down those streams, and 
of course they are not habitat for anything known to man. 
Nothing will eat them, although we are trying to I think 
develop some bugs that will eat them, and what are the bugs 
going to do to the rest of the environment? We have a problem 
with that.
    But the most frustrating thing, and I think both of the 
members that have talked prior to me have already mentioned the 
genesis, the seed beds for most of that happens to be out of 
control of the State, out of control of local Government, out 
of control of the private property owners because it is under 
the nature and the character of ownership and control that is 
generally Federal waterways or Federal lands, and in a State 
like Idaho, where 65 percent of the State is federally owned, 
either through the Forest Service or the BLM, the Park Service 
or the Bureau of Reclamation, it is very frustrating to know 
that we try to keep up with the invasive species that we have 
in plants in Idaho and then only to find out when the next 
harvest season comes for wild seeds, the seeds blow from the 
Federal lands onto the private grounds and onto the State 
grounds.
    So I would like to see us get into a very aggressive 
program, where we could suppress that continued seeding, if you 
will, of private and State property from the Federal property. 
So I would encourage those folks that come forward before us 
today to present some opportunities for us to join together in 
a good partnership that can be effective in stopping the 
invasive species.
    Thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Gilchrest. Thank you, Mr. Otter.
    Ms. Christensen?

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I just want to 
thank you for holding this hearing. In our Subcommittee on 
Parks and Public Lands, we just reported out Congressman 
Hefley's bill on invasive weeds, but we did that realizing that 
this Committee hearing was going to take place, and indeed it 
was a larger issue than weeds, and so we appreciate having this 
hearing and look forward to the testimony.
    Mr. Gilchrest. Thank you.
    Mr. Acevedo-Vila?
    Mr. Acevedo-Villa. No.
    Mr. Gilchrest. Mr. Inslee?
    Mr. Inslee. No.
    Mr. Gilchrest. We did report Mr. Hefley's bill, which is, 
to a great extent, through my discussion with Mr. Hefley, is a 
companion bill to Mr. Rahall's bill, and we will pursue a 
strategy as we move forward with both of these bills that will 
ensure the effectiveness and success of both of these bills. 
Whether they are joined together or whether they remain 
separate, they both have their place.
    Our first panel is Dr. James Tate, Jr. Oh, before I do 
this, there are some extra seats up here, for people in the 
back, if you want to sit on the lower dais, you are welcome. 
Just don't sit where Ms. McCollum is and J.D. is, I guess, in 
case he comes in. I think there may be enough for everyone. If 
the folks in the back want to come up and sit down, you may.
    There are still five seats left up there.
    [Laughter.]
    Mr. Gilchrest. I mean, you can come on up if you want to. I 
think they want to leave early. That may be why they want to 
stay back there.
    [Laughter.]
    Mr. Gilchrest. Dr. James Tate, science adviser to the 
Secretary of the Department of Interior, and Ms. Janette 
Kaiser, acting associate deputy chief, National Forest System, 
U.S. Forest Service. Welcome, Ms. Kaiser, Dr. Tate.
    Ms. Kaiser, you may begin.

  STATEMENT OF JANETTE KAISER, ACTING ASSOCIATE DEPUTY CHIEF, 
          NATIONAL FOREST SYSTEM, U.S. FOREST SERVICE

    Ms. Kaiser. Thank you for the opportunity to appear before 
you today. I am Janette Kaiser, acting associate deputy chief 
for National Forest Systems, USDA Forest Service.
    My comments today represent the views of USDA on H.R. 3558, 
the Species Protection and Conservation of the Environment Act.
    First, I would like to commend the Subcommittees for 
recognizing harmful, nonnative, invasive species as a 
significant threat to our Nation's ecosystem health. Nonnative 
invasive species alter ecosystem functions and reduce 
biological diversity by eliminating native species which, in 
turn, can lower the water table, increase soil erosion and 
runoff or increase fire frequency and intensity. Nonnative 
invasive species also change the plant community used by 
domestic livestock, wildlife and recreationists. These changes 
in ecosystem often result in eliminating or restricting use of 
our wildlands and urban areas and increase management costs.
    Populations of nonnative invasive plants in the United 
States are expanding annually by 7 to 14 percent. We face a 
daunting challenge in managing nonnative invasive species, but 
the Department is committed to working with the administration 
and the Congress to identify solutions. USDA is in a strong 
position to address this issue because of the broad authorities 
supporting nonnative invasive species management. Various field 
operations in the Department include prevention, detection, 
control, monitoring and restoration, research and technology 
development, technical assistance to States, tribes and private 
landowners, financial assistance, including cooperative 
agreements and grants and international collaboration.
    Although USDA supports the objectives of H.R. 3558 to 
address the problem of nonnative invasive species, we do, 
however, have concerns. The Department has numerous programs 
and delivery systems already in place under existing statutory 
authorities to address nonnative invasive species management. 
Within the Forest Service in particular, there is a full range 
of existing authorities to support an integrated program of 
research and development, management of nonnative invasive 
species on public land, and technical assistance to private 
landowners.
    These programs focus on invasive insects, such as the Asian 
longhorn beetle and gypsy moth, invasive pathogens such as 
Sudden Oak Death Disease and invasive plants that grow after a 
fire, such as starthistle. The programs that are implemented on 
National Forest System lands emphasize management of nonnative 
invasive species, the same focus areas that are in H.R. 3558.
    For reasons I will detail in my testimony, USDA strongly 
supports the concept of controlling nonnative invasive species 
at the local level, with support provided by a multitude of 
partners. However, H.R. 3558 raises a number of questions to 
USDA. The Department would like to engage the Committee in more 
detail regarding, first, compatibility with existing 
authorities in USDA; second, implementation and accountability; 
and, last, the establishment of demonstration projects.
    I will address compatibility with existing authorities in 
USDA first.
    Currently, within USDA there are six agencies that have a 
leadership role in dealing with the introduction and spread of 
nonnative invasive species, and are involved in research, 
regulation, operations, partnerships, technical and financial 
assistance and education.
    USDA's Animal and Plant Health Inspection Service, commonly 
known as APHIS, is the front line of prevention, dealing with 
interdiction at borders, interstate movement, detecting and 
mitigating disseminations, and providing eradication of new 
introductions.
    The USDA research agencies, the Agriculture Research 
Service, Cooperative State Research, Education and Extension 
Service and the Forest Service provide information on the basic 
ecology of nonnative invasive species, as well as detection, 
monitoring and control methodologies and technologies. The 
Forest Service has a broad range of authorities to address the 
nonnative invasive species issue and to coordinate with other 
Federal agencies with corresponding responsibility.
    The Forest Service, the Natural Resource Conservation 
Service, APHIS and the Farm Service Administration provide 
technical and financial assistance, consultation, technology 
transfer, prevention, and landscape restoration following an 
invasion or to prevent an invasion following a disaster. The 
nonnative invasive species program in these agencies will run 
both independently and collaboratively.
    The National Invasive Species Council that was created by 
Executive Order 13112 is an example of a collaborative effort 
among Federal agencies. The Council is an interdepartmental 
council co-chaired by the Departments of Agriculture, Commerce 
and Interior.
    Another program involving Federal agencies is the Pulling 
Together Initiative Steering Committee, sponsored by the 
Federal Interagency Committee for Management of Noxious and 
Exotic Weeds that are known as FICMNEW. The Pulling Together 
Partnership Initiative has been ongoing since 1996 and is a 
multi-agency effort that provides Federal matching grants 
through the National Fish and Wildlife Foundation for local and 
regional weed prevention and control projects.
    Federal agencies involved in this effort includes the 
Forest Service, the Bureau of Land Management, the Fish and 
Wildlife Service, the Bureau of Reclamation, the National Park 
Service, the Department of Defense, as well as APHIS. Funds 
allocated from agencies involved with the Council or FICMNEW 
could be affected by funding allocated for H.R. 3558.
    Let me address implementation and accountability. Section 5 
of H.R. 3558 provides that a qualified project must be 
conducted on lands or waters under the control of the eligible 
applicant and on adjacent lands or waters of a Federal agency. 
The bill should be clarified to provide that the Federal agency 
must approve any qualified project on land under its 
jurisdiction. The Department believes these decisions should 
remain within the jurisdiction of the Federal land managers.
    Section 5 of H.R. 3558 establishes two programs and a 
demonstration project for the Fish and Wildlife Service within 
the Department of Interior, which can be enhanced by current 
programs in USDA, thus avoiding any potential redundancy.
    USDA also notes two aspects of administration in Sections 
4, 5, and 9 of H.R. 3558 for which it would be helpful to have 
more information. First, H.R. 3558 delegates the coordination 
of the projects to the Invasive Species Council. However, the 
Council staff is not involved in program administration.
    Second, H.R. 3558 allocates 5 percent of the funding for 
administrative expenses. USDA is concerned whether this applies 
to the preparation of an environmental document, as the 
percentage may not be sufficient for what is needed to conduct 
an environmental analysis.
    Last, let me address the establishment of demonstration 
projects.
    H.R. 3558 addresses the implementation of demonstration 
projects on National Wildlife Refuge System lands. The 
Department believes National Forest System lands could also 
serve as a site for a demonstration project to conduct field 
tests and demonstrate applied research activities which are 
vital components and essential for success of management goals.
    USDA has found that research and technology development is 
critical to successful land management, including cooperative 
efforts with State and local partners. Similarly, restoration 
actions, following nonnative invasive species treatment, are 
often key to sustaining control and ecosystem health over the 
long term. Options are needed for supporting applied field 
tests, technology development and restoration actions when 
these are essential components of an effective, on-the-ground 
management strategy.
    The Forest Service National Forest System, Research and 
Development and State and Private Forestry mission area could 
implement a demonstration project.
    In conclusion, nonnative invasive species threaten forest 
and rangeland sustainability and ecosystem viability. Although 
there are points of concern related to this bill, the 
Department believes this bill is a commendable effort to 
address nonnative invasive species management on public and 
private lands. The Department would like to work with the 
Committee to review existing authorities and determine if there 
is a need to amend those authorities. This concludes my 
testimony, and I would be happy to answer any questions that 
you might have.
    [The prepared statement of Ms. Kaiser follows:]

 Statement of Janette Kaiser, Acting Associate Deputy Chief, National 
     Forest System, Forest Service, U.S. Department of Agriculture

    To the Chairmen and members of the subcommittees, thank you for the 
opportunity to appear before you today. I am Janette Kaiser, Acting 
Associate Deputy Chief, National Forest System, USDA Forest Service. My 
comments today represent the views of USDA on H.R. 3558, the Species 
Protection and Conservation of the Environment Act.
    First, I would like to commend the subcommittees for recognizing 
harmful nonnative invasive species as a significant threat to our 
nation's ecosystem health. Nonnative invasive species alter ecosystem 
functions and reduce biological diversity by eliminating native 
species, which in turn can lower the water table, increase soil erosion 
and runoff, or increase fire frequency and intensity. Nonnative 
invasive species also change the plant community used by domestic 
livestock, wildlife, and recreationists. These changes in the ecosystem 
often result in eliminating or restricting the use of our wildlands and 
urban areas and increase management costs. Populations of nonnative 
invasive species in the U.S. are expanding annually by 7 to 14 percent. 
We face a daunting challenge in managing nonnative invasive species, 
but the Department is committed to working with the Administration and 
the Congress to identify solutions. USDA is in a strong position to 
address this issue because of the broad authorities supporting 
nonnative invasive species management. Various field operations in the 
Department include prevention, detection, control, monitoring and 
restoration; research and technology development; technical assistance 
to States, Tribes and private landowners; financial assistance 
including cooperative agreements and grants; and international 
collaboration.
    Although USDA supports the objectives of H.R. 3558 to address the 
problem of nonnative invasive species, we do however have concerns. The 
Department has numerous programs and delivery systems already in place 
under existing statutory authorities to address nonnative invasive 
species management. Within the Forest Service in particular, there is a 
full range of existing authorities to support an integrated program of 
research and development, management of nonnative invasive species on 
public land, and technical assistance to private landowners. These 
programs focus on invasive insects such as the Asian longhorn beetle 
and Gypsy Moth, invasive pathogens such as Sudden Oak Death Disease, 
and invasive plants that grow after a fire such as starthistle. The 
programs that are implemented on National Forest System lands emphasize 
management of nonnative invasive species, the same focus areas that are 
in H.R. 3558.
    For reasons I will detail in my testimony, USDA strongly supports 
the concept of controlling nonnative invasive species at the local 
level with support provided by a multitude of partners. However, H.R. 
3558 raises a number of questions for USDA. The Department would like 
to engage the Committee in more detail regarding (1) compatibility with 
existing authorities in USDA; (2) implementation and accountability; 
(3) and establishment of demonstration projects.
Compatibility with Existing Authorities in USDA
    Currently, within USDA there are six agencies that have a 
leadership role in dealing with the introduction and spread of 
nonnative invasive species and are involved in research, regulation, 
operations, partnerships, technical and financial assistance, and 
education. USDA's Animal and Plant Health Inspection Service (APHIS) is 
the front line of prevention, dealing with interdiction at borders, 
interstate movement, detecting and mitigating disseminations, and 
providing eradication of new introductions. The USDA research agencies, 
the Agricultural Research Service, the Cooperative State Research, 
Education, and Extension Service, and the Forest Service, provide 
information on the basic ecology of nonnative invasive species, as well 
as detection, monitoring and control methodologies and technologies. 
The Forest Service has a broad range of authorities to address the 
nonnative invasive species issue and to coordinate with other Federal 
agencies with corresponding responsibilities.
    Forest Service, Natural Resources Conservation Service, APHIS and 
Farm Services Administration provide technical and financial 
assistance, consultation, technology transfer prevention, and landscape 
restoration following an invasion or to prevent an invasion following a 
disaster. The nonnative invasive species programs in these agencies run 
both independently and collaboratively.
    The National Invasive Species Council that was created by Executive 
Order 13112 is an example of a collaborative effort among federal 
agencies. The Council is an inter-Departmental Council, co-chaired by 
the Departments of Agriculture, Commerce, and the Interior. Another 
program involving federal agencies is the ``Pulling Together Initiative 
Steering Committee'' sponsored by the Federal Interagency Committee for 
Management of Noxious and Exotic Weeds (FICMNEW). The Pulling Together 
Partnership Initiative has been ongoing since 1996, and is a multi-
agency effort that provides federal matching grants through the 
National Fish and Wildlife Foundation for local and regional weed 
prevention and control projects. Federal agencies involved include the 
FS, BLM, FWS, Bureau of Reclamation, NPS, Department of Defense, and 
APHIS. Funds allocated from agencies involved with the Council or 
FICMNEW could be affected by funding allocated for H.R. 3558.
Implementation and Accountability
    Section 5 of H.R. 3558 provides that a qualified project must be 
conducted on lands or waters under the control of the eligible 
applicant, and on adjacent lands or waters of a Federal agency. The 
bill should be clarified to provide that the Federal agency must 
approve any qualified project on land under its jurisdiction. The 
Department believes these decisions should remain within the 
jurisdiction of Federal land managers.
    Section 5 of H.R. 3558 establishes two programs and a demonstration 
project for the Fish and Wildlife Service in the Department of the 
Interior, which can be enhanced by current programs in USDA, thus 
avoiding any potential redundancy.
    USDA also notes two aspects of administration in Section 4, 5, and 
9 of H.R. 3558 for which it would be helpful to have more information. 
First, H.R. 3558 delegates the coordination of projects to the Invasive 
Species Council; however, Council staff is not involved in program 
administration. Second, H.R. 3558 allocates five percent of the funding 
for administrative expenses. USDA is concerned whether this applies to 
the preparation of an environmental document, as the percentage may not 
be sufficient for what is needed to conduct an environmental analysis.
Establishment of Demonstration Projects
    H.R. 3558 addresses the implementation of demonstration projects on 
National Wildlife Refuge System lands. The Department believes National 
Forest System lands could also serve as a site for a demonstration 
project to conduct field tests and demonstrate applied research 
activities, which are vital components and essential for success of 
management goals. USDA has found that research and technology 
development is critical to successful land management, including 
cooperative efforts with State and local partners. Similarly, 
restoration actions following nonnative invasive species treatment are 
often key to sustaining control and ecosystem health over the long-
term. Options are needed for supporting applied field tests, technology 
development and restoration actions, when these are essential 
components of an effective on-the-ground management strategy. The 
Forest Service National Forest System, Research and Development, and 
State and Private Forestry mission areas could implement a 
demonstration project.
    In conclusion, nonnative invasive species threaten forest and 
rangeland sustainability and ecosystem viability. Although there are 
points of concern related to this bill, the Department believes this 
bill is a commendable effort to address nonnative invasive species 
management on public and private lands. The Department would like to 
work with the Committee to review existing authorities and determine if 
there is a need to amend those authorities.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Kaiser. That was 
very helpful.
    Dr. Tate?

STATEMENT OF JAMES TATE, JR., SCIENCE ADVISOR TO THE SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Dr. Tate. Thank you, Mr. Chairman. I am Jim Tate. I am the 
science advisor to the Secretary of Interior, and on behalf of 
the Secretary, we appreciate the opportunity to appear before 
your Committee to present our views on the Species Protection 
and Conservation of the Environment Act of 2001.
    The Department of Interior commends Congress for 
recognizing this serious threat to the United States that is 
posed by invasive species. We are particularly concerned about 
invasive species with respect to the health of our natural 
resources, for which we have great trust responsibilities in 
Interior, and of course for the strength of our national 
economy because they affect both very strongly.
    The Department of Interior programs on invasive species 
need your support in order to help build the partnerships at 
the State and local levels for managing invasive species on our 
lands and waters, that is, those that we are responsible for 
and those of our neighbors. These cooperative efforts will make 
otherwise limited programs effective by allowing us to work 
with partners who have adjacent lands and adjacent waters, and 
that is one of the strengths that you present to us here.
    We have to recognize that in the wake of September 11th 
that we have to identify the possible costs of everything we 
do, everything that comes before us. We must ask how anything 
that we are funding new that we might approach would affect the 
current budget climate, the priorities reflected in the 
President's budget, and the priorities of our Nation as a 
whole.
    A few comments that I think support your ideas. Mr. Rahall 
mentioned earlier that $137 billion had been identified as a 
cost to our economy. That is the study done at Cornell by David 
Pimentel and others. We know that invasive species degrade the 
habitats for native fish and wildlife. They disrupt the 
equilibrium of plant and animal communities across the country, 
an equilibrium that has been established on a broad and long 
scale, longer than the scale of time that invasive species have 
been such an issue, and in regard to our environmental law, the 
Endangered Species Act, we have linked invasive species to the 
decline of more than a third of all of the threatened and 
endangered listed species in our country. That is David 
Wilcove's study that made that correlation.
    Managing invasive species is, in fact, a priority for our 
Department. The National Invasive Species Council just referred 
to is co-chaired by the Secretary of Interior, along with the 
Secretaries of Commerce and Agriculture. We coordinate the 
invasive species efforts of 10 different Federal departments 
and agencies to ensure our actions are effective and efficient.
    In addition to our economy and our natural resources, it is 
also clear that our Nation's abundant natural resources can be 
threatened at the drop of a shoe by invasive species, something 
of great concern to us.
    The Department of Interior's program investment in invasive 
species is second only within the Federal Government to that of 
USDA. In fiscal year 2000, we spent $31 million, which was 5 
percent of the total Federal invasive species expenditures, and 
spending has accelerated significantly from $17 million in 1999 
to $41 million in 2002. We do propose to spend about $40.8 
million in 2003.
    At the Department of Interior, the Invasive Species Council 
is our guest. We are the host to the Council itself. The 
Invasive Species Advisory Committee works directly with, and 
advises the Council, and that advisory committee directly 
builds stakeholder involvement in collaboration between Federal 
agencies and non-Federal partners, which is one of the 
strengths of your bill.
    We also support the management principles embodied in your 
legislation. We strongly support the need to promote strong 
partnerships. We recognize that Federal land management 
agencies in Interior, such as the U.S. Fish and Wildlife 
Service, the National Park Service, the Bureau of Land 
Management, and the U.S. Bureau of Reclamation play key roles 
in managing invasive species, particularly at the local level 
where communities are struggling with means to protect their 
environment, maintain sustainable agriculture and continue 
economic stability.
    The concepts in your bill represent several mechanisms 
where the Federal sector could better cooperate and consult 
with its potential partners. We also applaud the Committee's 
interest in utilizing the Fish and Wildlife Service's National 
Wildlife Refuge System for demonstration projects to develop 
new techniques and procedures to restore and manage invasive 
species issues.
    We have identified several concerns with the bill. They are 
minor concerns. I don't think I need to outline them here at 
this time. They can be found in my written comments, but we do 
appreciate the opportunity to appear before this Committee, and 
I wish to thank you on behalf of Secretary Norton for your 
efforts to address these important issues. Secretary Norton's 
stated principle of communication, consultation and cooperation 
apply to the invasive species issue as well as any of the 
issues, and we applaud your efforts for conservation in this 
regard. Thank you.
    [The prepared statement of Dr. Tate follows:]

 Statement of Dr. James Tate, Jr., Science Advisor, U.S. Department of 
                              the Interior

    Mr. Chairmen, my name is Jim Tate, and I am the science advisor to 
the Secretary of the Interior. Thank you for the opportunity to appear 
before your Committee to present the views of the Department of the 
Interior on H.R. 3558, the Species Protection and Conservation of the 
Environment Act of 2001.
    The Department commends Congress for recognizing the serious threat 
to the United States posed by invasive species, particularly with 
respect to the health of the environment and the strength of our 
national economy. Our programs on invasive species need the support of 
the Congress to in order to help build capacity at State and local 
levels for managing invasive species on our lands and waters and those 
of our neighbors, especially in pursuit of cooperative conservation 
goals. We are encouraged by this bill and others introduced in prior 
sessions of the Congress that emphasize streamlined efforts to focus 
efforts on-the-ground projects. However, we need to identify more 
clearly the possible costs of this proposal and how it would be funded 
within the context of the current budget climate and the priorities 
reflected in the President's budget.
    Researchers at Cornell University estimate that invasive species 
are costing Americans approximately $137 billion per year (Pimentel et. 
al. 2000). Invasive species degrade habitats for native fish and 
wildlife, disrupt the equilibrium of plant and animal communities 
across the country, and have been linked to the decline of more than a 
third of all threatened and endangered species. (Wilcove, D.S., et. al. 
1998, ``Quantifying Threats to Imperiled Species in the United States'' 
BioScience 48: 607-615.) The U.S. Fish and Wildlife Service estimates 
that $29,000,000 of the Tier 1 projects identified in the Refuge 
Operations Needs is attributed to increasing impacts from invasive 
species. Managing invasive species is a priority for the Department. 
The National Invasive Species Council, which is co-chaired by the 
Secretary of the Interior, together with the Secretaries of Commerce 
and Agriculture, coordinates the invasive species efforts of ten 
different Federal departments and agencies to ensure that our actions 
are efficient and effective. We look forward to the opportunity to work 
with Congress to strengthen our nation's ability to identify, control, 
and eradicate these incipient invaders.
    The Department of the Interior's program investment in invasive 
species is second only to USDA. In fiscal year 2000, DOI spent $31 
million, approximately 5 percent of the total Federal invasive species 
expenditures (U.S. General Accounting Office 2000). Spending 
accelerated significantly from $17M in fiscal year 1999 to $41M in 
fiscal year 2002. The Department proposes to spend $40.8 million in 
2003:
        (1) Lto fight invasive plants and animals on National Wildlife 
        Refuges, National Parks (including Exotic Plant Management 
        Teams under the Natural Resources Challenge), BLM lands 
        (including removal of weeds contributing to unnatural wildfire 
        cycles and post-fire restoration), and waters under the 
        jurisdiction of the Bureau of Reclamation;
        (2) Lto stem the onslaught of aquatic nuisance species such as 
        the sea lamprey, Caulerpa alga, Eurasian ruffe, Giant Salvinia 
        water fern, and the Asian swamp eel primarily through the Fish 
        and Wildlife Service (FWS), BOR, and USGS;
        (3) Lto build partnerships with private landowners to eliminate 
        harmful alien species and to restore native plant and animal 
        communities (FWS Partners for Fish and Wildlife and the Pulling 
        Together Initiative of the National Fish and Wildlife 
        Foundation); and
        (4) Lto provide research and information sharing tools for 
        monitoring, prevention, and control and accountability in the 
        U.S. Geological Survey.
    The Department provides support for the National Invasive Species 
Council and the Invasive Species Advisory Committee to build direct 
stakeholder involvement and collaboration between federal agencies and 
non-federal partners fighting accelerating bioinvasions. Interior plays 
a major role in invasive species activities: leadership and 
coordination, prevention, early detection and rapid response, control 
and management, restoration, international cooperation, research, 
information management, and education and public awareness.
    We support the conservation principles and findings embodied in 
this legislation, and strongly support the need to promote strong 
partnerships among Federal, State, Tribal, local, and private 
landowners. We recognize that Federal land management agencies such as 
the U.S. Fish and Wildlife Service, the National Park Service, the 
Bureau of Land Management, and the U.S. Forest Service play key roles 
in managing invasive species, particularly at the local level where 
communities are struggling to find support for protection of the 
environment, sustainable agriculture, and economic stability. The 
concepts included in H.R. 3558 represent several mechanisms where the 
Federal sector could increase the amount of support it has to offer. 
The bill also expands invasive species prevention and control on public 
lands by increasing the capacity of Federal landowners to manage native 
systems by reducing the impacts of invasive species. We applaud the 
Committee's interest in utilizing the National Wildlife Refuge System 
for demonstration projects to develop new techniques and procedures to 
restore native fish and wildlife habitats through the control of 
invasive species. We support the bill's objective of enhancing the 
cooperative efforts between the public and private sectors in the 
battle against invasive species.
    H.R. 3558 establishes Federal cost-share grant programs similar to 
other invasive species management bills sponsored in both the House and 
the Senate over the past year, including H.R. 1462 on which I testified 
during the last session. The Department has identified several concerns 
with the bill. I will outline these concerns and several clarifying 
modifications briefly in this statement. It is our understanding that 
other Federal agencies may have additional concerns.
    H.R. 3558 expands invasive species prevention and control 
partnerships through four grant programs. The first establishes a 
mechanism to develop State assessments, or plans, which identify State 
priorities for controlling invasive alien species. The bill details a 
Federal cost-share program that will fund States to help build the 
capacity of individual, local, State, and Federal landowners to 
restore, manage, or enhance native fish or wildlife and their habitats 
through control of invasive species, including aquatic species. 
Providing technical and financial assistance for the development of 
State assessments on aquatic invasive species is an important role of 
the U.S. Fish and Wildlife Service. H.R. 3558 recognizes this role and 
provides such assistance. We point out that Section 4 of this bill 
provides a different mechanism for the development of State/Interstate 
Management Plans than those being developed under the authority of the 
Nonindigenous Aquatic Nuisance Prevention and Control Act of 1990 
(NANPCA) reauthorized as the National Invasive Species Act (NISA).
    Under NANPCA, plans developed by the States must follow specific 
guidelines and are submitted to the Task Force for approval. Once 
approved, States can receive funding from the U.S. Fish and Wildlife 
Service to implement the State plans. Although H.R. 3558 allows the 
Director of the U.S. Fish and Wildlife Service to accept plans 
developed prior to the enactment of this bill, the development of plans 
under Section 4 should complement and not conflict with existing 
programs. In addition, the process for developing and implementing 
these plans would need to be transparent and easy for States to follow, 
possibly through guidance that provides the necessary detail to allow 
for the submission of comprehensive and consistent plans.
    The second grant program authorized by H.R. 3558 promotes greater 
cooperation among Federal, State, local, and private landowners to 
prevent and control invasive species through a voluntary, incentive-
based financial assistance program, known as The Aldo Leopold Native 
Heritage Program. This program provides additional financial support 
for needed on-the-ground management activities. We note that similar 
cost-share programs are currently supported by the Department of the 
Interior in concert with the National Fish and Wildlife Foundation, 
such as ``Seeking Common Ground'', ``Bring Back the Natives'', and, 
particularly, the ``Pulling Together Initiative.'' The ``Pulling 
Together Initiative'' is a grant program for private, State, and 
Federal entities that leverages funds to conduct on-the-ground invasive 
plant management. The ``Pulling Together Initiative'' is also supported 
by the Departments of Agriculture and Defense. The program has grown to 
nearly $19 million per year, including matching funds from states that 
participate in the program. We view the requirements and grants 
established by this bill as complementary to existing programs such as 
``Pulling Together'' and other native fish and wildlife habitat 
restoration cost-share programs.
    While we applaud development of State assessments to set priorities 
and increase accountability, we are concerned that many otherwise 
eligible participants in the Aldo Leopold Native Heritage Program may 
not qualify for funding until the assessments are completed. This may 
limit the program's effectiveness, particularly if the State 
assessments take years to complete. In the case of State invasive 
species plans developed under NANPCA, only nine State/Interstate 
Aquatic Nuisance Management Plans have been developed over the past 10 
years. One of the key elements of a successful invasive species 
management program includes the ability to respond rapidly to new or 
small infestations. We are concerned that there may be a significant 
number of private landowners, local organizations, and other partners 
prepared to conduct scientifically-sound invasive species control 
projects, but whose projects will not qualify for grants because of the 
restrictions in Section 5 of H.R. 3558. Language that would lift this 
restrictive requirement, while continuing to require accountability and 
effective coordination of projects funded under Section 5, would 
address this concern.
    Section 5 of the bill also requires projects to have objectives 
that have no negative impact on the bioregion in which they are carried 
out. Although we agree with this concept, it may prove difficult to 
ensure that no negative impacts will occur, depending upon the scale on 
which the impacts are measured. Minor, short-term negative impacts may 
be a necessary phase of a science-based native fish and wildlife 
habitat enhancement project that has a long-term goal of restoring a 
bioregion. It would be helpful to clarify this point, and to amend the 
term ``bioregion'' to correspond to the ecoregions of the United States 
as determined by the U.S. Department of Agriculture.
    Additionally, Section 5 of H.R. 3558 requires that projects must be 
conducted in partnership with a ``Federal Agency.'' The term ``Federal 
Lands'', as defined in Section 3 of the bill, is limited to all lands 
and waters owned and administered by the Department of the Interior or 
the National Forest Service or held in trust by the Federal Government 
for an Indian tribe. We are concerned that limiting the definition of 
``Federal Lands'' in Section 3 may conflict with the Federal Agency 
requirement in Section 5, particularly in the case of partnerships to 
restore native fish and wildlife habitats on military lands and waters. 
Expanding the definition of ``Federal Lands'' to include military and 
other Federal lands and waters, or developing a definition of ``Federal 
Agency'' which would include agencies within the Department of Defense, 
Department of Transportation, Department of Commerce, and other 
agencies involved with the National Invasive Species Council would help 
strengthen this section.
    Section 5 of H.R. 3558 states that projects must be conducted on 
Federal lands and adjacent non-Federal lands or waters. Since many 
invasive organisms spread easily through the watercourses within a 
watershed, the term ``adjacent non-Federal lands'should be defined 
broadly to allow for projects anywhere in the same watershed. This 
would allow for projects to be conducted in remote locations that can 
reasonably be expected to act as a source for invasive species on 
Federal lands and in waters adjoining Federal lands.
    Section 5 of H.R. 3558 also details the contents of a 2-year report 
required to be submitted by the grantee. We are concerned that several 
of the requirements entail extensive biological sampling that could be 
very expensive, time consuming, and may limit the number of partners 
that are interested in taking part in the program. We are also 
concerned about the administrative burden of compiling and analyzing 
the monitoring data. Clarification that the Council could delegate 
duties to the appropriate agency, if necessary, while maintaining an 
oversight role would address this concern. We believe this Section 
should be modified to achieve accountability goals that facilitate the 
collection of useful data, yet prevent the expenditure of excessive 
resources on reporting that may limit on-the-ground accomplishments, 
and to develop inventorying and monitoring criteria that would meet the 
intent of the bill while using the best available science.
    The third initiative in H.R.3558 establishes a demonstration 
program, utilizing the National Wildlife Refuge System, to develop new 
technologies and methods to restore native fish and wildlife habitats 
by controlling aquatic and terrestrial invasive alien species. This 
program will complement a new fish and wildlife research demonstration 
program underway in the National Wildlife Refuge System. We note that 
other Federal bureaus and agencies may wish to implement similar 
demonstration programs on Federal lands and waters, thus expanding the 
role of all Federal land and water management agencies in the 
development of new strategies for invasive alien species prevention and 
control. Appropriate modifications to this section of the bill would 
facilitate such implementation.
    The fourth program authorized by H.R. 3558 would provide financial 
assistance to States for conducting rapid response activities to 
eradicate and/or prevent the spread of new infestations of harmful non-
native invasive species. We are encouraged by the desire of the 
Committee to improve the capacity of the States to respond rapidly to 
new invasive species infestations and conduct preventative response 
efforts to control the spread to new locations. The bill could be 
modified to require the Secretary to coordinate with existing early 
detection and rapid response programs and other Federal agency programs 
that deal with invasive species. Additionally, the bill could also be 
strengthened by including language to allow the responsible agency to 
enact administrative polies for the cost-share program.
    H.R. 3558 appears to us as though it may interfere with other 
authorities and laws not related to acquisition of lands and waters or 
interests therein. Language should be included that would prevent such 
interference.
    Finally, the Administration has additional concerns, such as 
appropriate cost share amounts and grant award criteria that would 
benefit by further clarification to sharpen its focus on priorities and 
performance.
    I appreciate the opportunity to appear before this Committee to 
discuss the issue of invasive species and I wish to thank you, 
Representative Rahall, as well as Chairman Gilchrest and Representative 
Underwood, for your efforts to address this issue. We support the 
mutual goal of assisting States, Tribes, and private landowners to 
prevent, control, and manage non-native invasive species while 
recognizing the need to maintain a strong partnership with neighboring 
federal lands and waters.
    This concludes my formal remarks. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Tate.
    Ms. Kaiser and Dr. Tate. I have a few questions. I know the 
questions that most of us ask here today, each response, based 
on the complexity of the science could be quite lengthy. But 
because we have a limited amount of time, sometimes a yes or no 
answer would be fine.
    [Laughter.]
    Mr. Gilchrest. And we will read your testimony fully as we 
progress through this process and take your recommendations 
into serious consideration.
    Ms. Kaiser, Dr. Tate, is this problem of invasive species 
beyond our control nationwide, worldwide?
    Dr. Tate. Let me say that in some instances we have gone so 
far with the invasive species that being able to manage them 
will be most difficult. We do want to restore equilibrium in 
our plant and animal communities that allows for sustainable 
use of those communities, and invasive species in some cases 
are a major challenge.
    Ms. Kaiser. I would answer yes and no. We have demonstrated 
the ability in many cases to be able to manage invasive species 
on a case-by-case basis. But there is the larger question of 
what is the long-term effect, so I will stand with yes or no.
    Mr. Gilchrest. Is there a system of priorities where you 
have hot spots in certain areas of the country that need the 
most attention and then other areas where they are not too bad, 
but if you pay attention to them right away, they can be fixed 
on an ongoing basis? Do zebra mussels, for example, making 
their way from the Great Lakes to Lochsa River or Moose Creek 
in Idaho--I think that is probably a priority--but also I would 
say is there something we can do with brown tree snakes in 
Guam?
    But let me move on. I asked Mr. Underwood, if he gets 
elected to Governor of Guam if he would hire me to be the 
principal eradicator of the brown tree snake, I would move down 
there.
    [Laughter.]
    Mr. Gilchrest. Are existing programs working, and if they 
aren't, is it because of lack of funding, lack of coordination? 
Will this legislation move us in the direction we need to go?
    Dr. Tate. We have funding as identified in the budget to do 
many of the things that you are asking for. What we need and 
what your bill provides is authority to work especially with 
some of our partners on private lands, and is one of the things 
we support strongly in your bill.
    Mr. Gilchrest. Thank you.
    Ms. Kaiser. I think the key to success for any of these 
programs is being integrated and collaborative and working with 
both public and private sectors together. I think that our 
delivery mechanisms are working because of increased attention 
for this issue, and the technology and the capabilities we are 
able to bring to the table.
    Mr. Gilchrest. Ms. Kaiser, you recommended that not only 
there be a demonstration project with the refuge system, but 
also with National Forest, which I think that is only 
appropriate because that sends it over to another committee, 
the Agriculture Committee, but I think maybe they would waive 
their jurisdiction if we included that.
    Would either one of you recommend somewhere in the country 
a demonstration project such that Mr. Otter suggested earlier, 
where the demonstration project would be specific to let's say 
where a refuge or a national forest butts up against private 
property where there is a spillover problem with invasive 
species?
    Dr. Tate. We absolutely support the demonstration project 
portion of what you are suggesting here, but frankly, there is 
not a refuge in the country that is not affected by adjacent or 
nearby lands or waters, that we could almost pick any refuge 
you want and get the results you need.
    Mr. Gilchrest. Thank you.
    Ms. Kaiser. Within the Forest Service I think there are so 
many opportunities I would recommend that we would work with 
either your Committee or other mechanisms that we have to 
collaborate, so your Committee or any of the other arenas and 
identify some of those opportunities.
    Mr. Gilchrest. Thank you. The last question--and I probably 
shouldn't have said keep your answers short, because it seems 
like you are holding back, so you can make them as long as you 
want for the rest of the members.
    [Laughter.]
    Mr. Gilchrest. Dr. Tate, I think you said $137 billion cost 
to the economy with invasive species.
    Dr. Tate. Yes, sir.
    Mr. Gilchrest. There is 31 or 40 some million dollars from 
Interior spent on invasive species, and I would guess a little 
bit more than that with the Forest Service, but I would also 
guess that it is well under $100 million that we spend 
nationally on invasive species. Now I am sure throughout the 
entire Federal Government there is maybe a little bit more than 
that, but considering $137 billion cost to the economy by 
invasive species, what in your background, history, experience, 
engagement in this problem, have you ever thought about would 
be an appropriate amount to make a dent or begin to overcome 
this problem? Can you give us a figure? Not a practical figure 
politically or a pragmatic figure politically, but the figure 
you think you know between your heart and brain would be a 
figure that would solve the problem?
    Dr. Tate. The short answer is no, I can't give you that 
figure, but the longer answer, let me explain what I mean by 
that.
    When David Pimentel and the others examined the situation 
and found $137 billion, this is a matter of economists and 
scientists looking at the impacts on our economy under a 
situation once up a time a few years back. Things have changed 
drastically in all regards since then.
    Here is what we are doing. We have initiated, late last 
year, a budget crosscut examination, looking at what money is 
spent not only in Interior but in Agriculture, Commerce and all 
the people trying to deal with the invasive species cost issue. 
And the results of that project, when they come out--and I 
predict not a long time, in time for the next budget cycle is 
what we are hoping for--that we will be able to answer you 
better where money is truly being spent on invasive species and 
where we can find economies, and we can find new opportunities 
for leveraging Federal dollars, and working with partners so 
that we actually are spending our money and their money most 
effectively.
    The other part of the question, are there hot spots, are 
there places where we should be spending our attention, 
directing our attention? A lot of it appears in the management 
plan. These are very optimistic goals in here, many of which we 
have already missed because of long transition and things of 
that nature, but the kinds of things that are here are an 
organized examination of what the concerns are and a 
prioritization to some degree. We are going to improve on the 
prioritization, and hopefully we can give you the numbers you 
ask for very soon.
    Mr. Gilchrest. Thank you very much.
    Ms. Kaiser. I would just add that I don't have a figure for 
you either. If I had to guess for the Department, it would be 
somewhere in the $100 million range, but that is a very broad 
guess.
    But I would like to comment. Any funding that you look at 
needs to be long term and sustained because these issues won't 
be resolved short-term. And we should also look at it in the 
context that it is a pay-me-now pay-me-later issue. The quicker 
we engage the costs will be much less. The longer we wait, the 
costs will be much higher.
    Mr. Gilchrest. Thank you very much. And your comments and 
recommendations have been very helpful.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    And thank you very much for your testimonies this morning. 
They, and understandably so, reflect a great deal of concern 
about the way the legislation would actually impact the 
organization of the agencies that you work with, yet at the 
same time that we draw attention to them, I guess the real 
import of the legislation for us here is to make the case, and 
I think some of the studies help us make that case that the 
problem of invasive species is so pervasive that we have to 
triangulate and develop new structures to deal with it, that 
cut across various agencies, that try to organize and get us to 
better understand the amount of resources that we are devoting 
to this and to comprehend whether those resources are up to the 
challenge.
    In line with that, I am just interested, Dr. Tate, in terms 
of the $137 billion figure on economic impact, is there any--I 
know you have probably thought about this a lot. Is there any 
element of that estimate that you take issue with?
    Dr. Tate. I wouldn't use the term ``take issue with.'' 
There is one area of it in which I believe we have not focused 
as strongly, and that is in the Department of Interior's 
Natural Resource trust responsibilities. Our natural resources 
are subject to tremendous challenges from invasive species on 
all fronts. While we have programs in place that deal with the 
various interfaces, for example, agriculture and natural 
resources, they tend to emphasize areas other than the natural 
resource side of our great riches here in the United States.
    An example might be appropriate so that you know what I am 
talking about. There is a disease in deer and elk called 
chronic wasting disease. It is related possibly to or caused by 
a similar circumstance as mad cow disease and a syndrome that 
occurs in humans. That disease is now endemic in a portion of 
the Colorado/Wyoming border. It extends, we discovered 
recently, over to Nebraska, and it extends west to Rocky 
Mountain National Park. That is both good news and bad news 
that it is in Rocky Mountain National Park. The good news is 
now we have Department of Interior resources focusing on it 
more and more than we did before. Department of Agriculture has 
responded to chronic wasting disease very effectively and moved 
forward. I should let them describe it, but they have moved 
forward by trying to take care of certain captive elk herds 
that are infected with it.
    But my point is that the natural resource side would be, 
could be better supported because it would be terrible to have 
to say that we would have to remove all of our wild deer and 
elk because of the possibility of controlling this disease, and 
that is my example of the kinds of things we would have to do 
with our current technologies.
    Mr. Underwood. I wish there were a way to infect the brown 
tree snake with that disease, and then would solve a number of 
other problems.
    [Laughter.]
    Dr. Tate. Emerging technologies is your answer there.
    Mr. Underwood. In prefacing your remarks you drew some 
attention, and you gave the sense that concern over nonnative 
species, the way the bill outlines it and proposes a funding 
level, you gave the sense that this would bump up against other 
priorities, and that is pretty standard when we are talking to 
administration representatives. I know you live in a different 
world in terms of trying to identify resources for your own 
activities. But would you say that this is too generous a bill?
    Dr. Tate. The bill is too generous in what regard?
    Mr. Underwood. In terms of the kinds of funding that is 
proposed and outlined.
    Dr. Tate. What we have discovered that we really like is 
your help in creating partnerships, in leveraging what funding 
we have, in leveraging what programs we have, by making it 
possible for us to reach to other communities and other 
stakeholders, and in terms of funding we have turned in our 
budgets and we will continue to develop our budgets with this 
in mind. And I can't tell you beyond that where we would go 
with it, but I do know that you have given us new opportunities 
to make taxpayers money go further.
    Mr. Underwood. Ms. Kaiser, in your testimony you indicated 
that you wanted to see USDA included in the pilot project, and 
I think it is something that--I think you also mentioned it, 
Dr. Tate, in your testimony, that you wanted to consider 
including a whole number of Federal agencies since this is an 
issue that cuts across all of these agencies. Yes, Ms. Kaiser, 
in your testimony, you--I mean I expect that you would be proud 
of the work of USDA in what you are doing, but the question 
that the Chairman asked I think was very appropriate to begin 
with, was are nonnative species out of control? And you 
answered both yes and no, but in your testimony you gave us the 
sense that there is a lot of activity that is devoted to this 
and a lot of resources in various parts of USDA. It seems to me 
that they are out of control, and it would seem to me that it 
would call for this kind of legislation and this kind of 
approach which would cut across all of the agencies.
    Ms. Kaiser. We applaud the effort to address this issue on 
a broad basis. When I said yes or no, it was, is there any 
hope; are we so out of control that there is no hope or that 
kind of thing. We have been very successful in--I would just 
suggest that there are delivery mechanisms in place in a 
variety of organizations, and some within, many within USDA, 
that can deliver on issues such as research and development, 
technology transfer, land management activities, best 
management practices, a variety of those things. And I would 
think that the type of funding you are talking about would be a 
great complement to the existing opportunities that we have, 
the existing delivery mechanisms within the Federal Government 
today, and I would encourage you to look at those.
    Mr. Underwood. OK. Well, thank you, and I also look forward 
to seeing a precise accounting of what kind of resources are 
used to combat nonnative species, if indeed, we are able to 
figure out the economic costs associated with this we ought to 
be able to at least figure out how much resources we are 
spending to combat it.
    I did just want to make a brief statement, Mr. Chairman. I 
believe we only received these testimonies yesterday, and I 
remember in my previous four terms we heard repeatedly about 
how tardy administration officials were in submitting their 
testimony, so I hope that we can speed that up a little bit.
    Mr. Gilchrest. I think the administration officials realize 
how busy Members of Congress are, and we probably wouldn't look 
at it until the night before anyway.
    [Laughter.]
    Mr. Gilchrest. I am not sure if that is the comment my 
staff wanted me to make.
    [Laughter.]
    Mr. Underwood. Well, that is right. That is the comment 
that my staff gave to me.
    [Laughter.]
    Mr. Gilchrest. Dr. Tate and Ms. Kaiser, thank you for your 
testimony. We appreciate you coming down here today and we look 
forward to working with you as the bill moves through the 
process. Thank you very much.
    Ms. Kaiser. Thank you.
    Mr. Gilchrest. Our next panel is Mr. Mark Van Putten, 
President, National Wildlife Federation; Dr. Chavarria, 
Director of International Special Programs, National Fish and 
Wildlife Foundation; Dr. Ann Bartuska, Executive Director, 
Invasive Species Initiative, The Nature Conservancy; Dr. Lucius 
Eldredge, Department of Natural Sciences, Bishop Museum.
    Thank you very much for coming today, ladies and gentlemen. 
Mr. Van Putten, you don't have any Russian ancestry?
    Mr. Van Putten. No, sir, I am a Hollander and it is Van 
Putten.
    Mr. Gilchrest. Maybe Mr. Putin has Holland ancestry. And it 
is Van Putten?
    Mr. Van Putten. Yes, sir.
    Mr. Gilchrest. Thank you very much. Thank you for coming 
this morning. We look forward to your try, and, Mr. Van Putten, 
you may begin, sir.

  STATEMENT OF MARK VAN PUTTEN, PRESIDENT, NATIONAL WILDLIFE 
                           FOUNDATION

    Mr. Van Putten. Thank you, Mr. Chairman, and members of the 
Committee. My name is Mark Van Putten. I am President of 
National Wildlife Federation, and I appreciate the opportunity 
to testify this morning on H.R. 3558.
    National Wildlife Federation is America's largest not-for-
profit conservation, education and advocacy organization with 
more than 4 million members and supporters. We also are a 
federation of state and territorial organizations, and we were 
founded in 1936.
    Mr. Chairman, I would like to request that my written 
testimony be included in the hearing record.
    Mr. Gilchrest. Without objection, so ordered.
    Mr. Van Putten. The conversation of our Nation's natural 
ecosystems in a healthy and abundant state provides innumerable 
and irreplaceable benefits to society. To conserve these 
ecosystems and realize these benefits, there are many complex 
issues to be addressed, including human population growth, 
pollution, sprawling development, unsustainable agricultural 
processes, and global climate change. All of these are 
important issues and we work on all of them, but another 
pernicious threat that has been too often overlooked is the 
subject of today's hearing, the harm brought upon our natural 
ecosystems by invasive and nonnative species.
    That threat has been recognized by the delegates to the 
National Wildlife Federation, who set our policies. And I have 
appended to my testimony the two resolutions that have been 
passed by our delegates in recent years, addressing the issue 
of invasive nonnative species. And I would associate myself 
with Dr. Tate's response to the question about the need for 
increased emphasis on the impacts that invasive nonnative 
species have on natural ecosystems as well as the impact that 
they have on agriculture and in other situations.
    After habitat loss itself invasive nonnative plants are the 
second greatest threat to native species. At least 5,000 
nonnative species, including more than 2,100 exotic plants and 
2,000 insects have invaded North America since the arrival of 
European explorers. And many of these species have been harmful 
to wildlife and ecosystems. They overwhelm native species and 
out compete them for food, space, water and other needs, and in 
some cases, they prey on native species and directly alter 
their habitat.
    In my written testimony I have cited two very compelling 
examples, the examples of melaleuca in the Everglades, and the 
Great Lakes experience, and I will not in my oral remarks go 
into any further detail, but they are two very compelling 
examples of the impacts on native ecosystems.
    The answer to this includes the remedies in this 
legislation and a broader public education, and the National 
Wildlife Federation has been dedicated to educating the broader 
public about the threat of invasive nonnative plants.
    For example, our Backyard Wildlife Habitat Program, through 
which we have helped homeowners and certified over 30,000 
backyards as Backyard Wildlife Habitat, emphasizes the use of 
native plants in landscaping, and our various activities on the 
World Wide Web similarly provides people with information on 
how they can use native species and the advantages of using 
those native species.
    The National Wildlife Federation strongly supports H.R. 
3558 and commends its authors and this Committee for that 
legislation, and looks forward to working with you as we 
proceed.
    I would, however, like to identify two concerns that we 
have in addressing the issue of nonnative invasive species. 
First of all, the ultimate test of Congress and our collective 
commitment to dealing with this problem will be appropriating 
the funds necessary to deal with it. Unless adequate funds are 
appropriated, the problem of invasive nonnative species will 
continue to grow unchecked, and I would also associate myself 
with the comments of the Representative of the Department of 
Agriculture, that is, either pay now or pay later, and it will 
be cheaper to pay now.
    Second, we have a concern that we need to be sure that the 
cure is not worse than the disease, that some of the techniques 
that are used to control or remove nonnative species need to be 
carefully assessed to ensure that those techniques are host 
specific and nonharmful to other species and to our natural 
ecosystems. We are concerned about the need to minimize the use 
of pesticides, herbicides and other chemicals, and to be very 
careful as we evaluate proposed solutions.
    The list and examples of invasive nonnative species 
destroying native communities is long and growing. H.R. 3558 
will help address this problem by encouraging cooperation among 
affected parties including private and Government interest and 
authorizing funding to initiate needed programs. We strongly 
support this bill and look forward to working with the 
Committee as it moves through the legislative process.
    Thank you very much.
    [The prepared statement of Mr. Van Putten follows:]

  Statement of Mark Van Putten, President and CEO, National Wildlife 
                               Federation

    On behalf of the National Wildlife Federation (NWF), I would like 
to thank the Chairman, Ranking Minority Member and Committee members 
for this opportunity to testify on the Species Protection and 
Conservation of the Environment Act (H.R. 3558). Thank you 
Representatives Rahall, Gilchrest and Underwood for authoring H.R. 
3558.
    I am Mark Van Putten, President and CEO of the National Wildlife 
Federation. We are the nation=s largest not-for-profit conservation 
education and advocacy organization with more than four million members 
and supporters, and nine natural resources centers throughout the 
United States. National Wildlife Federation's family also includes 
forty-six state and territorial affiliate organizations, including the 
Utah Wildlife Federation and West Virginia Wildlife Federation. Founded 
in 1936, the National Wildlife Federation works for the protection of 
wildlife species and their habitat, and for the conservation of our 
natural resources.
    Mr. Chairman, I request that my full written testimony be included 
in the hearing record.
    The conservation of our nation's natural ecosystems in a healthy 
and abundant state provides innumerable and irreplaceable benefits to 
society. To conserve these ecosystems and realize their benefits for 
all of us, we must address many complex issues, including human 
population growth, pollution, sprawling development patterns, 
unsustainable agricultural practices and global climate change. All of 
these are important issues and the National Wildlife Federation is 
actively working on each of them. However, another pernicious threat 
too often overlooked and the subject of today's hearing is the harm 
brought upon our natural ecosystems by invasive non-native species.
    H.R. 3558 addresses this threat by authorizing cost-share grants to 
states for projects consistent with state plans; creating the Aldo 
Leopold Native Heritage Grant Program for implementing effective 
control programs; encouraging demonstration projects on national 
wildlife refuges where ecologically sound methods of controlling 
invasive non-native species can be tested; and promoting the 
development of a rapid-response capability. This latter measure will 
help us address urgent threats before they become ecological disasters 
beyond our control. Each of these measures is a necessary and vital 
step in tackling the problem of invasive, non-native species. The 
National Wildlife Federation therefore strongly supports H.R. 3558.
    The National Wildlife Federation's affiliated organizations across 
the United States adopted a position statement on invasive non-native 
species in 2000, a copy of which is appended to my testimony. Our 
concern is that invasive non-native species can so radically change an 
area's physical and biological environment that the habitat 
requirements for native plants and animals no longer exist. After 
habitat loss, invasive non-native plants are the second greatest threat 
to native species. At least 5,000 non-native species, including more 
than 2,100 exotic plants and 2,000 insects, have invaded North America 
since the arrival of European explorers. Many of these species have 
been harmful to native wildlife and ecosystems. They overwhelm native 
species for food, space, water, and other needs. In some cases these 
species prey on native species and alter their habitat.
    Hawaii, perhaps more than any other state, has suffered severe 
impacts from introduced species. At least 23 native bird species have 
become extinct and another 32 bird species endangered in the last 200 
years in Hawaii. The non-native Indian mongoose, roof rat and feral cat 
are the primary reasons for this devastation of native fauna.
    The impacts of invasive non-native species are not confined to our 
natural ecosystems. Agricultural and rangelands can be severely harmed 
by the spread of invasive non-native species such as cheat grass and 
Russian thistle, which absorb valuable nutrients and deplete soil 
moisture. Navigation on many of our nation's waterways has been 
hampered by dense growths of aquatic invasive non-native plants such as 
hydrilla and water hyacinth. Industry also has suffered due to the 
spread of invasive non-native plants and animals into equipment and 
piping.
    The harm to natural ecosystems caused by invasive non-native 
species is illustrated by two well-known species, melaleuca and the 
zebra mussel.
The Everglades and Melaleuca
    Invasive non-native plants have become rampant in Florida in the 
last thirty years. According to the U.S. Department of Agriculture 
(USDA), just one species--melaleuca, a non-native tree introduced from 
Australia--is invading the greater Everglades ecosystem at a rate of 
about 11 acres per day. Melaleuca has already infested hundreds of 
thousands of acres in South Florida creating monocultures that destroy 
native plant diversity and provide little benefit to native wildlife 
species. Furthermore, the dense stands of melaleuca transpire enormous 
quantities of water, contributing to lowering of the water table in the 
Everglades, further expanding their impact on the natural wetlands that 
define the Everglades. The insidious spread of melaleuca and other 
invasive non-native plants like Brazilian pepper represent a serious 
threat to Florida's natural ecosystems and the habitat of endangered 
species such as the Florida panther, all at a time when we are 
embarking on an unprecedented effort to restore the greater Everglades 
ecosystem from decades of environmental mismanagement.
    Once an invasive non-native species takes hold, it is often very 
expensive, if not impossible to eradicate. It has taken more than a 
decade to find a natural predator of melaleuca that will not threaten 
native flora and fauna. The USDA is now releasing melaleuca leaf 
weevils from Australia to control the spread of the tree, reducing the 
need to use potentially hazardous chemical controls.
    The National Wildlife Federation has been educating people in the 
greater Everglades watershed about the threat of invasive non-native 
plants. Our Backyard Wildlife Habitat ``, and Keep the Wild Alive--
educational programs have sponsored events focusing on habitat. NWF has 
shown people how to identify invasive non-native plants, especially 
melaleuca, replace them with natives in their own communities and take 
part in restoration activities in rural and wilderness areas. One event 
we co-hosted with the USDA last year took Boy Scouts out into panther 
habitat to collect weevils from one area of forest and release them 
into another forest currently being invaded by melaleuca.
The Great Lakes and Zebra Mussels
    For decades, the National Wildlife Federation has worked to protect 
the biological integrity of the Great Lakes from numerous environmental 
threats. One of the most alarming threats to the Great Lakes, however, 
comes from invasive non-native plants such as Eurasian water milfoil, 
non-native fish such as the Eurasian ruffe and round goby, and the 
zebra mussel. These and other species were introduced into the Great 
Lakes from ballast water discharged by foreign ships using our coastal 
and inland waterways. Native to the Balkans, Poland, and the former 
Soviet Union, the zebra mussel is spreading across North America at an 
astounding rate. Dense zebra mussel colonies grow in pipes and on other 
hard surfaces, severely impacting water flow at power plants, water 
treatment systems and other facilities. Although the full biological 
impact of zebra mussels is not entirely known, it is clear that where 
zebra mussels invade, native mussel species quickly decline.
    So great is the problem of invasive non-native species in the Great 
Lakes, that just last Friday, March 8, 2002, the National Wildlife 
Federation's affiliated organizations adopted the resolution 
``Protection of the Great Lakes from Exotic Species.'' In this 
resolution, which I have appended to my testimony, we identify the need 
for additional federal and state legislation requiring the treatment of 
ballast water in ships entering the Great Lakes.
Legislation
    The Species Protection and Conservation of the Environment Act 
(H.R. 3558), is an important component of what should be a broad and 
diverse effort to minimize the impact of invasive non-native species, 
control their spread and prevent their introduction in the first place. 
The problem of invasive non-native species is so widespread and 
pervasive that no single program or action can address it 
comprehensively. This is particularly true where the spread of invasive 
species may be exacerbated by other environmental problems.
    For example, last month National Wildlife Federation published a 
book entitled, Wildlife Responses to Climate Change, North American 
Case Studies. This book explores how global climate change has the 
potential to significantly increase the rates, intensities, and extent 
of species invasions and could correspondingly worsen the impacts of 
invasions on ecological systems throughout the United States. A summary 
of the study as it relates to invasive species is included with my 
written testimony.
    Thousands of non-native plant and animal species, all with their 
own unique life history characteristics, have the potential to severely 
impact our natural ecosystems, not to mention agriculture and industry. 
Invasive non-native species are of concern on both public and private 
lands and water features, and will thus require private and public 
cooperation, including local, state, regional and federal agencies, to 
effectively address the problem.
    Already, encouraging efforts are under way. On February 3, 1999 
President Clinton signed Executive Order 13112 ``Invasive Species'' 
which established the National Invasive Species Council (Council). The 
Council helps coordinate the activities of 10 federal agencies with 
respect to invasive non-native species, including research, management 
and monitoring. H.R. 3558 takes a positive step forward by assigning 
the Council important consultation functions as grant programs 
authorized by the bill are designed and implemented.
    The National Wildlife Federation would also look favorably on 
federal legislation permanently establishing the National Invasive 
Species Council and providing it with adequate funding. Such 
legislation would help ensure the continuity of programs and sustain 
focus during changing administrations, and therefore would help in 
effectively controlling invasive non-native species.
    We are also encouraged by the introduction of other legislation to 
address the invasive non-native species problem. Specifically, I am 
referring to the Great Lakes Ecology Protection Act (S.1034). This 
legislation would finally close the loop hole which exempts ships 
entering the Great Lakes declaring that they have no ballast on board 
from regulation under the Nonindigenous Aquatic Nuisance Prevention and 
Control Act of 1990. Experience has shown that these exempted ships can 
still transport invasive non-native species to the Great Lakes and 
other areas.
    Although we embrace legislation authorizing funding for the control 
of invasive non-natives, two precautionary notes are in order. First, 
the ultimate test of Congress's commitment to controlling invasive non-
native species is in the annual appropriations process. Unless adequate 
funds are appropriated, the problem of invasive non-native species will 
continue to grow unchecked.
    Second, programs to control and manage invasive non-native species 
must be developed and implemented in such a manner that they are not 
harmful to our natural ecosystems. The introduction of non-native 
species to control other non-native species must be vigorously screened 
to ensure the species is host specific and non-harmful to other species 
and our natural ecosystems. Furthermore, all control methods should 
seek to minimize the use of pesticides, herbicides and other chemicals. 
In the few cases where use of chemicals may be appropriate, this use 
must be tightly regulated and carefully monitored to avoid harming non-
target native species. All projects and programs addressing invasive 
non-natives should be evaluated according to their success in 
implementing appropriate environmental controls.
Conclusion
    The list of invasive non-native species destroying our native 
communities is already too long and is still growing. H.R. 3558 will 
help address the problem by encouraging cooperation among affected 
parties, including private and government interests, and authorizing 
funding to initiate needed programs. We strongly support H.R. 3558 and 
look forward to working with this committee as H.R. 3558 moves through 
the legislative process.
    Again, thank you for the opportunity to testify. I would be happy 
to answer any questions that Members may have.
                                 ______
                                 

National Wildlife Federation
Resolution Number 1
2000

                            INVASIVE SPECIES
    WHEREAS, some non-indigenous invasive plants, animals and other 
organisms have an adverse impact upon indigenous communities by 
reducing available light, water, nutrients, and space and can cause 
other long term changes in the area's hydrology, soil chemistry and 
erodibility, and the frequency of fires; and
    WHEREAS, some introduced non-indigenous plants, animals and other 
organisms are highly invasive, capable of rapid reproduction and/or 
growth resulting in the displacement of indigenous species, and can 
radically change an area's physical and/or biological environment so 
that the habitat requirements for indigenous plants, animals and other 
organisms no longer exist; and
    WHEREAS, non-indigenous invasive plants, animals and other 
organisms by nature are easily spread from one area to another; and
    WHEREAS, the impact of non-indigenous invasive species threatens 
regional biodiversity in a manner that is not easily quantified; for 
example, the loss of an indigenous plant community to non-indigenous 
invasive species may mean the loss of an insect, animal or indigenous 
plant dependent upon that community; and
    WHEREAS, according to the National Park Service, invasions of non-
native plants are the second greatest threat to native species after 
direct habitat destruction; and
    WHEREAS, the U.S. Fish and Wildlife Service stated, ``an estimated 
42% of the nation's endangered and threatened species have declined as 
a result of encroaching exotic plants and animals''; and
    WHEREAS, the problem of non-indigenous invasive plants is 
widespread and, according to federal and other accounts, now extend 
into more than 1.5 million acres of national park land and are 
spreading at a rate of 4,600 acres per day into federally owned land; 
and
    WHEREAS, it is ``estimated that in the 20th century, just 79 
introduced plant and animal species have cost the U.S. economy $97 
billion in losses to such industries as forestry, ranching, fisheries, 
tourism, and utilities''; and
    WHEREAS, research is required to establish best management 
practices to control and prevent the spread of non-indigenous invasive 
species; and
    WHEREAS, international trade agreements and rules, regulations, and 
protocols related to international transportation and trade can 
significantly affect the possible transportation of non-indigenous 
invasive species into the United States and other countries;
    NOW, THEREFORE, BE IT RESOLVED that the National Wildlife 
Federation in its Annual Meeting assembled March 16-18, 2000, in 
Seattle, Washington, supports the President's efforts in establishing 
the Invasive Species Council to integrate efforts of federal agencies 
to combat the problem and to prepare and issue the first edition of a 
National Invasive Management Plan that shall ``detail and recommend 
performance-oriented goals and objectives and specific measures of 
success for federal agency efforts concerning invasive species''; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation 
supports increased federal funding for non-indigenous invasive species 
management in National Parks and on other federal lands and/or waters, 
and the continued funding of the Wildlife Habitat Incentives Program 
(WHIP) that, in part, provides cost sharing for private initiatives to 
control non-native (invasive) plants from natural ecosystems; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation 
encourages state and federal agencies, universities and other groups to 
work together to identify and list the highly and potentially invasive 
non-indigenous species specific to that state, and to promote that the 
list be used as an educational and managerial tool; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation calls 
upon state and federal agencies to carefully formulate regulations to 
control, reduce, or, if necessary, prohibit the introduction, 
transportation, propagation, sale, or distribution of non-indigenous 
plants known to be harmful or otherwise undesirable; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation 
encourages state and federal agencies, universities, and other groups 
to work with the nursery industry to establish policies to control and 
prevent the further introduction and spread of non-indigenous invasive 
species, and to promote a list of alternative, preferably native 
plants, that can be the basis of educational programs that will benefit 
growers, the public, and the environment; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation 
encourages state and federal entities engaged in research and 
development involving management of vegetation to intensify their 
studies of ecology and control of invasive non-indigenous plants; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation urges 
monitoring of areas that have endangered or threatened species and/or 
are relatively free of non-indigenous invasive species and encourages 
careful management practices to be used in the removal of non-
indigenous invasive species; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation urges 
the Congress and federal agencies to ensure that the United States' 
international trade obligations, including the World Trade Organization 
and its Sanitary and Phytosanitary Agreement, are formulated and 
implemented to provide sufficient flexibility to allow for regulations 
to control and prohibit intentional or unintentional introduction of 
non-indigenous invasive species and other organisms into the United 
States and other countries; and
    BE IT FURTHER RESOLVED that the National Wildlife Federation urges 
the Congress of the United States to recognize the high environmental 
and economic costs associated with non-indigenous invasive plants, 
animals and other organisms and to appropriately fund efforts to 
control this enormous national environmental crisis through educational 
programs, research, and cost-share incentives to restore native 
habitats.
                                 ______
                                 

National Wildlife Federation
Resolution Number SC-2
2002

   PROTECTION OF THE GREAT LAKES AND OTHER WATERS FROM EXOTIC SPECIES
    WHEREAS, our Great Lakes, estuarine habitats, coastal and inland 
waters continue to be invaded by exotic (non-native) aquatic organisms 
and pathogens transported from foreign waters; and
    WHEREAS, these organisms arrive in the ballast water discharged by 
ships using our estuarine, coastal and inland waterways; and
    WHEREAS, previously introduced exotic species, such as Eurasian 
ruffe and round gobies, are being carried in ballast water from one 
Great Lakes port to another; and
    WHEREAS, once introduced and established, these non-native aquatic 
organisms are expensive to control and almost impossible to eliminate; 
and
    WHEREAS, the impact on sport and commercial fisheries is immense 
and disrupts the aquatic diversity of the Great Lakes, estuarine 
habitats, coastal and inland waters; and
    WHEREAS, moreover, shoreline communities in the Great Lakes region 
alone are being forced to spend an estimated $500 million annually on 
control measures to protect drinking water, power plants, and 
recreational facilities; and
    WHEREAS, some of these aquatic organisms, such as zebra mussels and 
Eurasian water milfoil, are now making their way into inland lakes and 
streams across the United States where they are displacing native 
animal and plant species; and
    WHEREAS, the ballast water that harbors these invaders is used to 
maintain the stability of cargo vessels when they are empty or only 
partially loaded and is pumped in or out of large holding tanks, as 
needed, before the ships enter or leave port; and
    WHEREAS, although U.S. and Canadian laws currently require ships 
entering the Great Lakes to exchange their ballast water at sea, ship 
design makes it impossible to eliminate all of the ballast water; and
    WHEREAS, the majority of ships entering the Great Lakes do so with 
``No ballast on Board'' and ships in this condition are commonly 
referred to as NOBOBs; and
    WHEREAS, ships in the NOBOB condition still carry sediment in their 
ballast that can harbor exotic species; and
    WHEREAS, the average ship retains 42,000 gallons of ballast water 
and sludge when entering the Great Lakes or moving between ports; and
    WHEREAS, exotic organisms are flushed into the lakes as ships take 
on and discharge residual ballast water in the course of their voyages; 
and
    WHEREAS, ships in the NOBOB condition are currently exempt from 
requirement to exchange their ballast under federal law; and
    WHEREAS, federal laws as they are currently administered have 
clearly failed to prevent exotic species in this residual ballast water 
from reaching the Great Lakes, estuarine habitats, coastal and inland 
waterways; and
    WHEREAS, in the 106th Congress a bill was introduced that would 
have amended the Non-indigenous Aquatic Nuisance Control and Protection 
Act of 1990 and require ships traveling in and out of the Great Lakes, 
estuarine habitats, coastal and inland waters to replace or purify 
their ballast water or certify that any discharge or exchange within 
U.S. waters will not introduce any non-indigenous organisms; and
    WHEREAS, the National Wildlife Federation believes the ultimate 
control has to come from the Federal government working in concert with 
Canada; and
    WHEREAS, the National Wildlife Federation and many other 
organizations recognize the threat posed to the Great Lakes, estuarine 
habitats, coastal and other inland lakes and streams of the United 
States by the continued introduction of non-indigenous aquatic 
organisms carried in the ballast water of ocean going vessels.
    NOW, THEREFORE, BE IT RESOLVED that the National Wildlife 
Federation, at its Annual Meeting assembled March 7-9, 2002 in Stone 
Mountain, Georgia, support the enactment of federal legislation to 
protect the Great Lakes, estuarine habitats, coastal and inland waters 
from undesirable exotic species and pathogens, by requiring treatment 
of ballast water of all ships entering or moving between the Great 
Lakes, estuarine habitats, coastal or inland ports, including ships 
with no ballast on board (NOBOBs) to eliminate viable exotic organisms 
without damage to the environment; and
    BE IT FURTHER RESOLVED, that the National Wildlife Federation 
encourages the development, funding, and use of environmentally sound 
technologies that prevent the introduction of exotic species into the 
aquatic environment by minimizing or eliminating the uptake of 
organisms into ships' ballast tanks; and
    BE IT FURTHER RESOLVED, that the National Wildlife Federation 
supports equally effective state legislation to regulate ballast water, 
including ships in the NOBOB condition in individual state waters to 
provide interim protection until such time as federal legislation is 
enacted to adequately protect all our Great Lakes, estuarine habitats, 
coastal and inland lakes and rivers.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] 78207.022
                                 
                                 [GRAPHIC] [TIFF OMITTED] 78207.023
                                 
    Mr. Gilchrest. Thank you, Mr. Van Putten.
    Dr. Chavarria.

STATEMENT OF GABRIELA CHAVARRIA, DIRECTOR OF INTERNATIONAL AND 
    SPECIAL PROGRAMS, NATIONAL FISH AND WILDLIFE FOUNDATION

    Ms. Chavarria. Thank you, Mr. Chairman.
    Mr. Chairman, members of the Committee, my name is Gabriela 
Chavarria, and I am Director of International Programs at the 
National Fish and Wildlife Foundation. The Foundation is 
pleased to testify before you today as you address the silent 
spread of invasive and noxious plant species as one of the 
greatest threats to the biological diversity, ecological 
stability and the economy of an increasing number of areas in 
the United States and the world.
    Impacts from exotic invasive species are second only to 
direct habitat loss as a factor in the decline of fish, 
wildlife and plant diversity. Of the 5,000 introduced plant 
species established in the United States, 476 are 
scientifically recognized as pests with aggressive and invasive 
characteristics. Experts estimate that invasive and noxious 
plants have infested well over 100 million acres and the area 
affected continues to increase by 8 to 20 percent annually. 
These plants have encroached upon millions of acres, 
supplanting native plants, disrupting ecosystem structure and 
function, and infecting agricultural crops, causing billions of 
dollars in lost revenue.
    In 1996 the Foundation, along with the Bureau of Land 
Management and the USDA Forest Service, created a private/
public partnership to aid in the prevention, management and/or 
eradication of invasive and noxious plants, and to increase 
public awareness of the adverse impacts. This partnership is 
called the Pulling Together Initiative or PTI. This initiative 
has served as an implementation program to the National 
Strategy on Invasive Noxious Weeds produced in 1996--and you 
have a copy of this--and is now part of the National Invasive 
Species Management Plan. You also have a copy of that.
    We represent demonstration projects that go on every day. 
Over the past 6 years this program has become a joint effort 
between the Foundation, the U.S. Fish and Wildlife Service, the 
Bureau of Land Management, the Bureau of Reclamation, the 
National Park Service, the USDA Forest Service, the USDA 
Animal, Plant and Health Inspection Services, and the 
Department of Defense.
    To date, 220 grants have treated invasive species in 36 
States and 2 U.S. possessions. The program has provided over $7 
million in Federal funds that have been leveraged by over $30 
million in non-Federal funds for a total of over $21 million 
for on the ground projects.
    The program promotes greater cooperation among the various 
stakeholders to implement ecologically based strategies to 
eradicate, mitigate and control harmful nonnative plant species 
through a voluntary and incentive-based financial assistance 
grant program. This program helps in the development of long-
term weed management projects within the scope of an integrated 
weed management strategy. Projects range from pulling yellow 
star thistle in Idaho to releasing biological control agents on 
leafy spurge in Colorado, to selective spraying of giant 
salvinia in the lower Colorado River.
    Our program provides support on a competitive basis for its 
public/private partnership through the formation of local weed 
management area partnerships nationwide. This is critical in 
that it serves to engender public awareness and increase 
interest in further eradication efforts to protect, enhance, 
restore, and manage native habitats for native fish and 
wildlife.
    We recognize limits on Federal resources and build into our 
program a 5-year plan of funding for individual projects. This 
5-year plan gives the grantee important startup monies to 
leverage with a myriad of local resources. These local 
resources range from volunteer labor to chemical donation to 
neighborhood sharing of equipment.
    These projects are not selected by the Foundation alone. 
They are selected by a national steering committee, which is 
comprised of 22 invasive weed species experts from the Federal, 
private and corporate sectors.
    The PTI success remains rooted in the principle of public/
private partnerships at the national and local levels. Bringing 
a national presence to the invasive species issue, we empower 
local weed management entities to fight the battle at a 
landscape level. This approach also focuses resources on the 
important component of public outreach and awareness. As the 
general public learns more of the ecological and economical 
threat, they become engaged in preventing the establishment of 
these invasive species in their communities. Attention such as 
this at every level is a key precursor to a successful fight 
against invasive weed species.
    We commend this Committee for taking action and introducing 
legislation that is a much-needed step in the right direction.
    Thank you, Mr. Chairman, and members of the Committee for 
the opportunity to testify before you today. This concludes my 
remarks, and I will be happy to answer any questions.
    [The prepared statement of Ms. Chavarria follows:]

 Statement of Gabriela Chavarria, Ph.D., Director of International and 
        Special Programs, National Fish and Wildlife Foundation

    The National Fish and Wildlife Foundation (the Foundation) is 
prohibited from testifying on behalf of specific legislation but 
appreciates the opportunity to submit this statement as it relates to 
the growing problem of invasive species on both public and private 
lands.
    The Foundation is a private, non-profit, 501(c)3 tax-exempt 
organization, authorized by Congress in 1984 to conserve fish, 
wildlife, and plants, and the habitats on which they depend. We have 
funded nearly 5,000 projects and leveraged over $175 million in federal 
dollars for more than half a billion dollars in funding for on-the-
ground conservation, conservation education, and organizational 
capacity building. The Foundation is non-partisan and does not support 
lobbying, political advocacy, or litigation. The Foundation's primary 
conservation ingredient is its grantees and other partners--the 
hundreds of federal, state, tribal, corporate, and private 
organizations that have leveraged federal dollars, identified the 
worthy projects, and conducted the conservation projects. In 
particular, our core federal agency partners provide vital matching 
funds through its appropriations and budgets, and invaluable program 
direction and technical assistance. The U.S. Fish and Wildlife Service, 
National Oceanic and Atmospheric Administration, USDA-Forest Service, 
Bureau of Land Management, Bureau of Reclamation, Agency for 
International Development, Environmental Protection Agency, and USDA-
Natural Resource Conservation Service are the eight core agencies 
providing this support.
    The Foundation's conservation investments have resulted in over 20 
million acres of restored wildlife habitat--an area nearly equal to the 
State of Indiana, and over 11,000 miles of restored streams and 
waterways. We have helped develop new models for private land 
stewardship, created new hope for countless species, and built 
educational programs that nurture the next generation of stewards.
    The Foundation commends Congress on its efforts to recognize the 
silent spread of invasive and noxious plant species as one of the 
greatest threats to the biological diversity, ecological stability, and 
the economy of an increasing number of areas in the U.S. and the world. 
Impacts from exotic invasive species are second only to direct habitat 
loss as a factor in decline of fish, wildlife, and plant diversity. Of 
the 5,000 introduced plant species established in the U.S., 476 are 
scientifically recognized as pests with aggressive and invasive 
characteristics. Experts estimate that invasive and noxious plants have 
infested well over 100 million acres and the area affected continues to 
increase by 8 to 20 percent annually. These plants have encroached upon 
millions of acres, supplanting native plants, disrupting ecosystem 
structure and function, and infesting agricultural crops, causing 
billions of dollars in lost revenue.
    In 1996, the Foundation, along with the Bureau of Land Management 
and the USDA-Forest Service, created a private/public partnership to 
aid in the prevention, management, and/or eradication of invasive and 
noxious plants and to increase public awareness of the adverse impacts. 
This partnership is called the Pulling Together Initiative (PTI). PTI 
has served as an implementation program to the National Strategy on 
Invasive Noxious Weeds produced in 1996 and is supported by over 100 
private, federal and corporate organizations, and is now part of the 
National Invasive Species Management Plan.
    Over the past six years, PTI has become a joint effort between the 
Foundation, the U.S. Fish and Wildlife Service, the Bureau of Land 
Management, the Bureau of Reclamation, the National Park Service, the 
USDA-Forest Service, the USDA-Animal Plant and Health Inspection 
Services, and the Department of Defense. Since weeds do not respect 
boundaries, our agency partners recognized the need to form 
partnerships without borders.
    To date, 220 grants have treated invasive species in 36 states and 
two U.S. Possessions. The PTI program has provided $7,279,174 million 
in federal funds that have been matched by $13,777,922 million in 
nonfederal funds, for a total of $21,057,096 million for on-the-ground 
projects. A map showing the distribution of the projects is enclosed 
for your review (Attachment A).
    PTI promotes greater cooperation among the various stakeholders to 
implement ecologically based strategies to eradicate, mitigate, and 
control harmful nonnative plant species through a voluntary and 
incentive-based financial assistance grant program. This program helps 
in the development of long-term weed management projects within the 
scope of an integrated pest management strategy. An integrated pest 
management strategy is significant in that it includes mechanical, 
chemical, and biological control.
    Projects range from pulling yellow star thistle in Idaho, to 
releasing biological control agents on leafy spurge in Colorado, to 
selective spraying of leafy spurge in remote areas in North Dakota.
    PTI provides support on a competitive basis for its public/private 
partnership through the formation of local weed management area (WMA) 
partnerships nation-wide. The significance of the WMA is to ensure that 
implementation of the integrated pest management approach is understood 
from acre to acre, parcel to parcel, state to state. These partnerships 
are critical in that they serve to engender public awareness and 
increase interest in further eradication efforts to protect, enhance, 
restore, and manage native habitats for native fish and wildlife.
    PTI recognizes limits on federal resources and builds into its 
program a five-year plan of funding for individual projects. This five-
year plan gives the grantee important startup monies to leverage with 
myriad local resources. These local resources range from volunteer 
labor, to chemical donations, to lending a tractor.
    PTI has been effective in initiating working partnerships, 
demonstrating successful collaborative efforts, and building on those 
successes to develop permanent funding sources for the maintenance of 
WMAs from the involved parties.
    PTI projects are not selected by the Foundation alone. They are 
selected by a National Steering Committee, which is comprised of 
twenty-two invasive weed species experts from the federal, private, and 
corporate sectors. A list of these members is attached as attachment B.
    After six years, the success of PTI remains rooted in the principle 
of public/private partnerships at the national and local levels. 
Bringing a national presence to the invasive species issue, PTI 
empowers local weed management entities to be successful in their 
partnership efforts to fight the battle at a landscape level. With this 
national local backing, PTI also focuses resources on the important 
component of public outreach and awareness. As the general public 
learns more of the ecological and economical threat, they become 
engaged in preventing the establishment of these invasive species in 
their communities. Attention such as this at every level is a key 
precursor to a successful fight against invasive weed species.
    We appreciate the opportunity to appear before this Committee to 
discuss the issue of invasive species. We would like to thank you, Mr. 
Chairman, and Members of this Committee, for your efforts to address 
this important issue. This concludes my remarks and I am happy to 
answer any questions that you may have.
                                 ______
                                 

                                 [GRAPHIC] [TIFF OMITTED] 78207.020
                                 
                                 [GRAPHIC] [TIFF OMITTED] 78207.021
                                 
    Mr. Gilchrest. Thank you very much, Dr. Chavarria.
    Dr. Eldredge, welcome. I am sorry, I got my names mixed up. 
Dr. Bartuska. Thank you. You may begin.

  STATEMENT OF ANN M. BARTUSKA, EXECUTIVE DIRECTOR, INVASIVE 
           SPECIES INITIATIVE, THE NATURE CONSERVANCY

    Ms. Bartuska. Good morning. My name is Ann Bartuska. I am 
the Executive Director of the Nature Conservancy's Invasive 
Species Initiative. And I would like to thank the Chair and the 
Committee for inviting the Conservancy to testify before you 
today on H.R. 3558.
    I would like to submit my full testimony to the record and 
just briefly summarize my remarks.
    Mr. Gilchrest. Without objection.
    Ms. Bartuska. Thank you.
    The Nature Conservancy is fully dedicated to preserving 
plants, animals and natural communities that represent the 
diversity of life on this earth. We are trying to do that with 
our presence in 50 States and 28 countries worldwide.
    And our concern on invasive species has really become 
critical, especially after we surveyed our member organizations 
nationwide and internationally last year, and determined that 
75 percent of our units have identified invasive species as the 
No. 1 critical threat to achieving our mission. Because of 
that, we feel we can't ignore the whole invasive species issue, 
and appreciate the opportunity today to talk about H.R. 3558 
and the role that might play in contributing to the fight 
against invasives.
    What I would like to do today is just summarize a few of 
our comments that we have about the bill, and also to identify 
some areas that we think could be further improved or analyzed 
as the discussions continue about this bill, and then to 
conclude with some remarks on future opportunities, always 
taking advantage of an opportunity like this to put some new 
things on the table.
    We believe that any program that provides mechanisms to 
work across land ownerships, Federal, State and private, to 
deal with the invasive threat is a very positive step forward, 
and we commend the members of the Subcommittees for putting 
this together as part of H.R. 3558. We think it does bring some 
valued attention to the invasive species issue and does provide 
some opportunities among all land ownerships to address the 
problem. We also support the idea of looking at all taxa, 
looking at plants, animals, insects, diseases, the full array 
of invasives that we have out there and not limiting to any 
particular threat as part of the overall package in the long 
run.
    In terms of some of the areas that we support, providing 
resources to the areas of greatest need I think is one thing 
that is identified in the bill that really helps get resources 
at the local level to where we have the greatest threat. Being 
able to have local entities make those decisions and to utilize 
the full information available through the Federal and State 
programs will certainly help us to address the problem where it 
exists. We also believe that the fact that the bill allows us 
to address prevention, eradication, rapid response and control 
and management, all encompass a very powerful way of looking at 
invasive species.
    Second, the emphasis in the bill on prevention and rapid 
response is a much-needed effort, and I think really highlights 
those areas where you do get the biggest bang for the buck, 
getting out early, taking care of a species infestation before 
it becomes a significant threat, before it becomes an 
established population is something that is a very high 
priority for all of us. We have seen that with fires, where if 
you address fires before they get established, your investment 
is much lower and your success rate is much higher.
    And then last, the idea of capacity building for the Fish 
and Wildlife Service to help support the backlog of invasive 
species management opportunities on the refuges is something 
that we support just generally in addressing Federal lands and 
getting ahead of the invasive species problems. So we continue 
to encourage that kind of an outcome in addressing the 
invasives problem.
    There are a few areas that we feel need to be further 
addressed, the areas of the State management plans. There is 
some opportunities for confusion in comparing what is in H.R. 
3558 with what has been identified through the Aquatic Nuisance 
Task Force, under NISA for the Co-op Forestry Assistance Act 
with the Forest Service on their Insect and Disease Management. 
So a more comprehensive look at State plans I think could be 
very beneficial.
    We also would like to encourage that the allocation to 
refuges or to Federal lands not be limited by adjacencies, that 
again, you go to where the greatest need is based on priority 
setting.
    And we are also concerned about the cost of monitoring. A 
question came up earlier about adequacy of resources. We 
believe that the dollars authorized for monitoring are probably 
not adequate to address the full needs of monitoring out there.
    The last point I would like to raise is with regard to the 
National Invasive Species Council. We are glad to see that that 
body has been given fuller authority to provide some oversight 
for the bill, but we believe that there are greater 
opportunities to give the National Invasive Species Council 
full statutory authority to be able to provide more oversight 
and accountability among the Federal agencies in terms of both 
the allocation of resources and the accountability measures.
    And I know my time is up. I have one other comment I would 
like to include, and that has to do with rapid response. I 
really would like to just comment for the members of the 
Committee to take a look at what authorities we have for rapid 
response to build upon the GAO report that identified some 
areas of weaknesses within the Federal sector on rapidly 
responding and to further bolster that particular part of the 
battle on invasives, both early detection and rapid response.
    So I thank you very much for the opportunity to provide 
comments, and of course, I am available for questions.
    [The prepared statement of Ms. Bartuska follows:]

   Statement of Ann M. Bartuska, Ph.D., Executive Director, Invasive 
               Species Initiative, The Nature Conservancy

    Mr. Chairman, and members of the Committee, I appreciate the 
opportunity to submit this testimony for the record on H. R. 3558, 
Species Protection and Conservation of the Environment Act. In 
particular, the Nature Conservancy is grateful to the Committee for 
introducing H.R. 3558 which is helping to bring needed attention to the 
serious harm caused by invasive species to our biological heritage and 
economic resources.
    The Nature Conservancy is dedicated to preserving the plants, 
animals and natural communities that represent the diversity of life on 
Earth by protecting the lands and waters they need to survive. The 
Conservancy has approximately 1 million individual members and over 
1,900 corporate donors. We currently have programs in all 50 states and 
in 28 nations. To date our organization has protected more than 90 
million acres in the 50 states and abroad, and has helped local partner 
organizations preserve million acres in other nations. The Conservancy 
itself owns more than 1,390 preserves--the largest private system of 
nature sanctuaries in the world. Our conservation work is grounded on 
sound science, strong partnerships with other landowners, and tangible 
results at local places.
    Why is The Nature Conservancy concerned about invasive species?
    <bullet> LAn internal survey of the Conservancy found that 
approximately 75% of the operating units believe invasive species are a 
killer threat preventing the accomplishment of our conservation 
strategies.
    <bullet> LUp to 46% of the plant and animal species listed as 
endangered in the United States have been negatively impacted by 
invasive species--In this regard, invasive species are a threat second 
only to habitat loss.
    <bullet> LThe economic costs to the people of the United States 
alone are estimated at $137 billion annually. Damages by invasive 
plants has led to annual losses in agricultural productivity of $20 
billion. Globally the costs are much higher.
    <bullet> LTaking action on invasive species provides powerful 
common ground with our partners--public and private, national and 
international.
Comments on H.R. 3558
    There is no question that invasive species--both aquatic and 
terrestrial--pose a huge problem to the natural resources of the United 
States. In addition, Federal and state agencies and private landowners 
face a management challenge with inadequate resources--personnel, 
management options, and funding. Any program that provides mechanisms 
to work across land ownership to solve the challenge of invasive 
species management is a positive step forward. HR. 3558 contributes to 
the further implementation of the National Invasive Species Management 
Plan, and enhances the capacity of private, State and Federal entities 
to manage invasive species. We commend the members of the Committee for 
raising the awareness regarding the significant impacts of invasive 
species of all taxa to our environment, and ultimately to our economy.
    1. Providing resources to areas of greatest need. The prevention, 
eradication, control and restoration of invasive species are, to a 
significant extent, a matter of local management. We believe it is 
important to provide mechanisms that stimulate local stakeholders to 
take action and the resources to see the action to a successful 
conclusion. H.R. 3558 makes an important effort to stimulate local 
action through its provisions addressing assessment, planning, 
monitoring and subsequent action on private, state and Federal lands. 
The legislation greatly expands the public/private model of invasives 
action presented by the ``Pulling Together Initiative''. This model for 
action has been used successfully by the Conservancy and many others 
throughout the country.
    2. Prevention and rapid response. The emphasis in the bill on 
prevention and rapid response highlights very constructively those 
management activities that most effectively minimize the establishment 
of invasive species. Natural resource managers need sufficient 
resources to eradicate incipient populations of invasive species 
wherever possible. The need for enhanced rapid response capability 
associated with non-agricultural lands is clear. This capacity must be 
matched, however, by sufficient resources to implement an early 
detection system that is the triggering mechanism for the response.
    3. Capacity building for Fish and Wildlife Service. As with many of 
the Federal agencies, there is a growing gap between the need to manage 
invasive species and the resources available for even the highest 
priority management activities. The backlog in invasive species 
management on the National Wildlife Refuge System is a serious threat 
to fish and wildlife habitat. The implementation of demonstration 
projects in the refuge system could contribute to reducing this backlog 
and help test new management tools.
Areas of concern:
    1. State management plans. There is the potential for confusion 
between the goals and target groups of the grant programs within this 
bill and the ``Partners for Fish and Wildlife'' program managed by the 
Fish and Wildlife Service. Similarly, state management plans are called 
for through the Aquatic Nuisance Species Task Force under the authority 
of the National Invasive Species Act (NISA) which is scheduled for re-
authorization in 2002. Through the Forest Service implementation of the 
Cooperative Forestry Assistance Act, States also are called upon to 
develop plans to address forest insects and disease, including non-
native invasive species like gypsy moth. The National Invasive Species 
Council should be required to develop guidance which leads to 
comprehensive and consistent state plans for invasive species 
management
    2. Scope of lands covered by grants. Language relevant to the Aldo 
Leopold Native Heritage Program suggests that projects on State and 
private lands are currently limited to those adjacent to Federal lands. 
However, invasives know no boundaries and federal funds should be 
directed to where the greatest resource needs are located. We recommend 
language that allows the use of federal funds on either federal, state, 
or private lands, or some combination of these lands, depending on 
where the greatest resource need is in a particular area.
    3. Costs of monitoring. It has become standard practice to include 
statements that call for monitoring of projects and program 
implementation. However, insufficient resources and accountability for 
monitoring are all too often provided for this purpose. We recommend 
increasing the funding level authorized to a level commensurate with 
the need for monitoring.
    4. Federal versus local focus. Success in the fight against 
invasives requires to a great extent cooperation among federal, state 
and private stakeholders. It is important to stimulate as much activity 
in organizing local stakeholders to fight invasives as possible. We 
would like more of the focus of decision making regarding funding of 
projects to involve local stakeholders, and less of the decision making 
to be made at the headquarters level.
    5. Implementation through the National Invasive Species Council. 
The Council is a potentially powerful mechanism to harmonize, 
standardize and integrate the actions of all federal agencies who deal 
with invasive species. Authorizing the Council to implement activities 
within H.R. 3558 will significantly contribute to coordination among 
agencies and Departments.
Future Opportunities
    The Nature Conservancy would like to take this opportunity to 
identify several areas not covered by H.R. 3558 which we believe must 
be addressed in the future to more effectively use Federal and State 
processes and programs:
    1. Authorize the National Invasive Species Council. The Council was 
established through an Executive Order in 1999 and has been given the 
broad responsibility for implementing the Executive Order and the 
components of the National Invasive Species Management Plan. We believe 
the full potential of the Council--administratively and legislatively--
will not be achieved until it is codified and provided more permanent 
status.
    2. Encourage the development and support for a cross-cut budget to 
implement the National Invasive Species Management Plan. Until a cross-
cut budget is deployed, federal and state efforts to address invasive 
species will continue to be fragmented and inconsistent and ultimately 
will not lead to the performance outcomes we should expect from federal 
funding. Congress can boost the development of such a budget through 
appropriations language and other communications with the 
Administration.
    3. Bolster Rapid Response. Rapid response, by definition, means the 
rapid deployment of people and resources to eradicate a plant or animal 
population prior to establishment. On Federal lands, rapid response is 
hampered by procedural requirements associated with the National 
Environmental Policy Act (NEPA). While TNC fully supports the use of 
NEPA as an important tool in achieving conservation goals, we also 
believe that new and creative solutions in the application of NEPA 
requirements is essential. NEPA streamlining is one area of opportunity 
being explored through the National Fire Plan and more recently by NISC 
staff, and we support expanding these efforts to include rapid response 
to invasive species.
    4. Establishment of a permanent fund. We also encourage the 
establishment of a permanent fund to fight invasive species. The annual 
appropriations process, coupled with the inability of Federal agencies 
to maintain funds for invasive species management across fiscal years, 
is a serious limitation to Federal and non-Federal rapid response 
capabilities. While APHIS has the broadest authority currently to 
address invasive species, this authority has generally been used only 
for agricultural systems. The GAO identified other barriers to a 
comprehensive Federal rapid response effort in a June 2001 report 
entitled ``Obstacles Hinder Federal Rapid Response to Growing Threat.'' 
We believe their recommendations have merit.
    In summary, The Nature Conservancy believes HR 3558 is consistent 
with the needs identified in the National Invasive Species Management 
Plan and provides for important support to States and to private 
landowners to increase their capability in prioritizing and managing 
invasive species. We look forward to working with the Committee to make 
further improvements to H.R. 3558 and other legislation on invasive 
species.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Bartuska.
    And the gentleman from Hawaii, who gets the most miles 
traveled award, a free trip to--well, you name it--Dr. 
Eldredge. Thank you very much, sir, for coming, and give us 
your expertise.

    STATEMENT OF LUCIUS G. ELDREDGE, DEPARTMENT OF NATURAL 
                    SCIENCES, BISHOP MUSEUM

    Mr. Eldredge. Mr. Chairman, members of the Committee, thank 
you for the opportunity to testify on H.R. 3558.
    Let me introduce myself. I am Dr. Lu Eldredge. I have lived 
in the Pacific Islands of Hawaii and Guam for more than 40 
years, and have seen many, many changes brought about by 
nonnative and invasive species. I have also worked very closely 
through the University of Guam with the South Pacific Regional 
Environment Program which looks at the 27 countries of the 
Pacific and helped them develop their technical program and 
their plans and strategy. I have been at the Bishop Museum at 
this time for 13 years. Many of you don't know, the Bishop 
Museum is 113-years-old. It has 24 million specimens and 
objects. It is the largest collection of material on Hawaii and 
the Pacific in any one place in the Pacific area and probably 
outside the Smithsonian, the largest place.
    The major staff members at the museum have been working 
with biodiversity and conservation, and almost every staff 
member has some aspect of working with introduced and nonnative 
species, from snails to fish to plants and seaweeds.
    The Hawaiian Islands, by virtue of their geographic 
isolation and rich volcanic soils, and enormous topographic and 
climactic diversity, have produced a highly endemic flora and 
fauna, which includes many of the world's outstanding examples 
of adaptive radiation. The biota includes more than 23,000 
species. Hawaii accounts for only two-tenths of a percent of 
the land area of the United States, but it has 31 percent of 
the Nation's endangered species and 42 percent of its 
endangered birds. Of the 1,072 species of native flowering 
plants, 73 are down to 20 or fewer individuals in the wild, and 
9 are down to 1 individual. Nearly one-third of the more than 
8,000 insects in the Hawaiian Islands are nonnative. Almost 75 
percent of the historically documented extinctions of plants 
and animals in the United States have occurred in Hawaii. Not 
only is Hawaii the extinction capital of the world, the 
Hawaiian Islands are also the introduced species capital of the 
world with 5,047 species. Approximately 22 percent of the biota 
of the Hawaiian Islands is nonnative.
    These figures have been pulled together through our 
activities of the Hawaii Biological Survey which was created by 
the State Legislature in 1992 to develop and maintain and 
disseminate information on the biota of the Hawaiian Islands. 
The Bishop Museum is also the coordinating activity for the 
Northwestern Hawaiian Islands Coral Reef Ecosystem Reserve, 
which is the second largest coral reef ecosystem in the world. 
We are assembling information on literature and will be 
convening a symposium on past and present research of the 
Northwest Islands.
    Very few figures like this are available for other places 
in the Pacific other than 63 percent of the flowering plants of 
Guam are considered to be nonnative. The problems with 
nonnative plants and animals, land plants and animals have been 
fairly well recognized. We have all watched the brown tree 
snake expand and so forth. There are other examples, but the 
freshwater ecosystems have not shared this extensive study. The 
U.S. mainland fresh waters, zebra mussel, purple loosestrife 
and so forth have attracted much attention, but the Pacific 
Islands, there have been very little known about the nonnative 
freshwater species. Most fish introductions have been the 
result of aquaculture through escape or intentional release. A 
total of 86 freshwater fish species have been introduced in the 
Pacific Islands. Not all of them have been successful. 72 
species have been introduced to the Hawaiian Islands and 59 
have become established. Papua New Guinea has received 30 
species of which 19 have been established. Guam and Fiji, each 
have received 24 species, of which 17 and 12 species have been 
established, respectively
    The flora and fauna of the coastal ecosystems is the least 
known. Nonnative marine species are difficult to distinguish. 
Through a series of established criteria, that is, sudden 
appearance, association with other nonnative species in harbors 
and docks and pilings, and disjunct distributions, like an 
animal has been found in Norway, the Panama Canal and Pearl 
Harbor, is an indication that these are perhaps introduced or 
cryptogenic, which means not demonstratively native or 
introduced. Really don't know.
    The majority of these marine species are dispersed by ships 
either in ballast water or attached to hulls, anchors, chains. 
Fouling organisms are also attached to drilling platforms, 
drydocks, buoys and so forth. Fisheries and marine aquaculture, 
including stock enhancement are major pathways by escape or 
intentional release.
    Numbers of nonnative marines species in Hawaii include 343 
species, which is more than San Francisco Bay has at this 
point. Of these, 287 are invertebrates, 24 algae, 20 fish and 
12 flowering plants. 212 or or more than 70 percent of these 
animals and plants are thought to have arrived through hull 
fouling. The majority of the species are from the Western 
Pacific and the Philippines, but an amazing 10 percent are from 
the Caribbean, more than 10 percent from the Caribbean.
    In Hawaii, our biggest problems at the present time are 
marine algae. The first to be recognized arrived on a cement 
barge, on a hull of a cement barge from the Philippines in 
1950. It is an now displacing much of the native algae all 
along the coastal areas. Three other species were introduced 
intentionally in the 1970's for potential commercial reasons. 
These have grown extensively and are now covering over areas as 
Kaneohe Bay and almost an entire single-phase species from a 
complex coral reef species to a single-phase algae species. 
There is a proposal in to work some sort of eradication on that 
project at the present time.
    Another species has invaded Waikiki and is covering up most 
of the coral reefs and the whole area of the community is 
changing tremendously.
    Mr. Gilchrest. Excuse me, Dr. Eldredge, the species you are 
talking about are species of algae, the last two?
    Mr. Eldredge. Yes, yes. Algae that were all introduced, 
intentionally introduced, and have escaped from their culture 
ponds.
    Approximately 20 species of marine fish are nonnative to 
the Hawaiian Islands. They were introduced in the 1950's from 
French Polynesia in a stock release, and at least three of 
those species are now competing with local native fishes on an 
extensive basis.
    And, of course, we also have the salt-tolerant tilapia that 
is coming out on the reefs and eating coral polyps.
    In various harbors and embayments in Hawaii, the percentage 
of nonnative species is quite high: for Pearl Harbor, we say 23 
percent nonnative; 17 percent for Honolulu Harbor; much lower, 
1.5 percent and 1 percent for Midway and Johnson Atoll. We are 
currently studying areas in Kaneohe Bay and Waikiki, and we 
find about 7 percent are nonnative. These percentage figures 
can be misleading. The zebra mussel in the Great Lakes is less 
than 1 percent of the fauna, so the percentages are kind of a 
tricky thing to talk about.
    The only similar comparative figures we have is that from 
Guam approximately 6.5 percent of the invertebrates surveyed 
were considered nonnative.
    We very much support the directives of H.R. 3558. We feel 
that the first line of defense is prevention followed by early 
detection and rapid response. We are actually now in the 
process of developing with NOAA, the National Ocean Service, a 
marine species early detection system, and by having protection 
and early detection, we can perhaps keep the coastal waters of 
Hawaii, of the mainland to a lower minimum number of species.
    We fully support the components of the bill, and the 
activities fall under our Hawaii Biological Survey at Bishop 
Museum, and we would be glad to do what we can do to help.
    I thank you. This concludes my testimony, and if you have 
any questions, I would be glad to answer them.
    [The prepared statement of Mr. Eldredge follows:]

Statement of Dr. Lucius Eldredge, Department of Natural Science, Bishop 
                             Museum, Hawaii

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to present testimony on H.R. 3558 
``Species protection and conservation of the environment''.
    Please let me introduce myself: I am Dr. Lu Eldredge. I have lived 
in the Pacific islands of Oahu and Guam for more than 40 years and have 
observed many changes in the environment during these times. First 
arriving in Hawaii in August 1959, I attended the University of Hawaii 
where I received a Ph.D. in Zoology in 1965. Following that I was a 
professor at the University of Guam for 22 years. I assisted in the 
development of the University Marine Laboratory and was very active 
with the South Pacific Regional Environment Programme, which allowed me 
to participate in many activities throughout the Pacific islands. I was 
a member of the SPREP Invasive species advisory group and participated 
in the development of SPREP's invasive species technical review and 
regional strategy. I have been at the Bishop Museum in Honolulu for the 
past 13 years. Bishop Museum has been the foremost museum in the 
Pacific during its 113 years, and with its 24 million specimens and 
objects contains one of the largest collections of Hawaiian and Pacific 
material in the world. As a leader in biodiversity and conservation in 
the region, the Museum's staff includes a major core group, studying 
nonindigenous and invasive species throughout the Pacific.
    The Hawaiian Islands, by virtue of their geographic isolation, rich 
volcanic soils, and enormous topographic and climatic diversity, have 
produced a highly endemic flora and fauna, which includes many of the 
world's outstanding examples of adaptative radiation. The biota 
includes more than 23,000 species. Hawaii accounts for only about 0.2% 
of the land area of the United States, but has 31% of the nation's 
endangered species and 42% of its endangered birds. Of the 1072 species 
of native flowering plants, 73 are down to about 20 or fewer 
individuals in the wild, and nine are down to one. Nearly one-third of 
the more than 8000 insect species are nonnative. Almost 75 % of the 
historically documented extinctions of plants and animals in the United 
States have occurred in Hawaii. Not only the ``extinction capital of 
the world'', the Hawaiian Islands are also the ``introduced species 
capital of the world'' with 5047 species of the total of 23,150 being 
introduced. Approximately 22% of the islands' biota is nonnative.
    These figures have been compiled through the activities of the 
Hawaii Biological Survey at the Bishop Museum. The Hawaii Biological 
Survey was established by the Hawaii State Legislature in 1992 to 
develop, maintain, and disseminate information on all the biota of the 
Hawaiian Islands. The Bishop Museum is also coordinating activities in 
the Northwestern Hawaiian Islands Coral Reef Ecosystem Reserve through 
assembling information on the literature and specimens from the 
Northwestern Hawaiian Islands and will be establishing standardized 
monitoring techniques as well as convening a symposium on past and 
present research activities to develop priorities for future study.
    Similar figures are not known for the other U.S.-affiliated islands 
in the Pacific. On Guam approximately 63% of the flowering plants are 
thought to be nonnative. All these islands need much more study.
    The problems of nonnative land plants and animals are fairly well 
documented. For more than 20 years I watched the brown tree snake 
spread on Guam from the harbor area northward. When we first arrived on 
Guam, the Guam rails would carry out their courtship dances in our 
children's sandbox, and the cardinal honeyeater would sip the red 
hibiscus just outside the front door. Now these species are extinct, at 
least in the wild, having been preyed upon by the brown tree snake.
    Many other examples could be enumerated. The aquatic (freshwater 
and marine) ecosystems have not shared in this extensive study. In U.S. 
mainland freshwaters the zebra mussels, purple loosestrife, round 
blenny, and others have attracted much attention and much research has 
been carried out on them. In the Pacific islands very little is known 
about nonnative freshwater species. Most fish introductions have been 
the result of aquaculture, either by escape or intentional release. A 
total of 86 fish species have been introduced into fresh (and some 
brackish) waters in the Pacific and Hawaiian Islands; not all have been 
successful. Seventy-two species have been introduced to the Hawaiian 
Islands, 59 have been observed or established since 1982. Twenty of 
these 59 species resulted from aquarium releases. New Guinea has 
received 30 species with19 being considered established. Guam and Fiji 
each have 24 introduced species; 17 species established on Guam and 12 
species established in Fiji.
    The flora and fauna of the islands' coastal ecosystems is the least 
known. Nonnative marine species are more difficult to distinguish. 
Through established criteria'sudden appearance, association with 
nonnative species in artificial (harbors, docks, pilings, etc.) sites, 
disjunct distributions (i.e., Norway, Panama Canal, Pearl Harbor)'their 
status can be determined as either introduced or cryptogenic (not 
demonstratively native or introduced).
    The majority of marine species are dispersed by ships either in 
ballast water or attached to the hull, anchors, chains, or to floating 
cargo as fouling organisms. Fouling organisms are also attached to 
drilling platforms, dry docks, buoys, and so forth. Fisheries and 
marine aquaculture, including stock enhancement, are major pathways 
either by escape or intentional release. The ornamental pet industry 
and public aquaria have been responsible for accidental or intentional 
releases.
    Numbers of nonnative marine species in Hawaii include 343 species--
287 invertebrates, 24 algae, 20 fish, and 12 flowering plants. Two 
hundred twelve or 90% are thought to have arrived through hull fouling. 
The majority of species had their origin in the western Indo-Pacific 
and Philippines; the origins of many are unknown or worldwide in 
distribution. More than 10% have originated in the Caribbean region.
    In Hawaii, five species of marine algae have become very invasive. 
The first to be recognized arrived on the hull of a cement barge from 
the Philippine Islands in 1950. This species, Acanthophora spicifera, 
has displaced native species. Hypnea musciformis, intentionally 
introduced for commercial reasons has been recorded to accumulate beach 
drift of 20,000 pounds per week at coastal Maui. Two additional species 
were deliberately introduced for potential commercial development and 
currently cover much of the coral reef in Kaneohe Bay. Gracilaria 
salicornia has invaded several reef areas overgrowing most of the reefs 
at Waikiki. All of these species are undergoing a community phase shift 
overgrowing a complex reef community and changing it to a single 
species algal community. Such rapid shifts (on the order of months) 
further demonstrates that these ecosystems are highly susceptible to 
changing physical and biological conditions.
    Approximately 20 species of marine fish are nonnative to Hawaiian 
waters. Three species, intentionally introduced from French Polynesia 
in the 1950s for stock enhancement, have become well established and 
may be competing with local native fishes. Salt-tolerant tilapia is 
feeding on coral polyps.
    In harbors and embayments in Hawaii the percentage of nonnative 
species increases greatly--23% for Pearl Harbor, 17% for Honolulu 
Harbor, but 1.5% and 1.0% for Midway Island and for Kahoolawe, 
respectively. Current studies in Kaneohe Bay and Waikiki show about 7% 
nonnative species. Percentage figures can be misleading, since an 
example like the zebra mussel, less than 1% of the fauna of the Great 
Lakes, has caused the greatest amount of damage.
    The only comparative figures are for Guam where about 6.7% of the 
total number of invertebrates surveyed are considered to be nonnative.
    In order to further the directives of H.R. 3558, more studies need 
to be conducted in the coastal areas of the United States. There is a 
great need to further understand the pathways and dispersal mechanisms 
of nonnative species. The first line of defense is prevention, followed 
by early detection and rapid response. Through these the coastal waters 
of the United States be able to keep the introductions of nonnative 
species to a minimum.
    I fully support all the components of H.R. 3558. All these 
activities fall under the purview of the Hawaii Biological Survey at 
Bishop Museum and its information gathering and dissemination 
activities, and its activities with the Northwestern Hawaiian Islands 
Coral Reef Ecosystem Reserve.
    Thank you, Chairman and Members of the Committee.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Eldredge.
    Mr. Underwood said he has served with you in some capacity 
in the past.
    Mr. Eldredge. Well, we were both at the University of Guam 
on the faculty at the same time, and Dr. Underwood was very 
helpful in organizing, help us organize the Pacific Science 
Inter-Congress last June on Guam.
    Mr. Gilchrest. Robert may want to talk to you later about a 
consortium for sea grant.
    [Laughter.]
    Mr. Gilchrest. He needs some support on that issue.
    Dr. Eldredge, could you tell us, where do most invasive 
species come from?
    Mr. Eldredge. In marine and estuarine areas, they are 
mainly from the Western Pacific, for Hawaii, Western Pacific 
and the Philippines. They have mainly come in on ship hulls as 
fouling organisms. But we still have 10 percent coming in from 
the Caribbean.
    Mr. Gilchrest. Are most of the introductions of invasive 
species up to this point accidental?
    Mr. Eldredge. Yes. A few have been intentional releases for 
stock enhancement and for fisheries, but primarily, more than 
90 percent are accidental. Just in the last month or so, we 
have had two new ones that we have found: a soft coral and 
Kaneohe Bay that is covering over the corals that have never 
been seen before, and a very small, stinging cubomedusa in 
Waikiki that hasn't been seen before. It is a nighttime 
swimmer.
    Mr. Gilchrest. And that is an invasive--
    Mr. Eldredge. Right. Western Pacific forms.
    Mr. Gilchrest. I am going to mispronounce your name again, 
Dr. Chavarria.
    Ms. Chavarria. No. You said it correctly.
    Mr. Gilchrest. Oh, did I? So most invasive species that 
reach either Hawaii or Guam or the Great Lakes or Florida or 
Colorado come in through some type of trade, would you say, on 
a ship?
    Ms. Chavarria. The majority of them. I mean, a lot of them 
can come terrestrially. People carry them. But in the case of 
Hawaii, the majority come through trade.
    Mr. Gilchrest. It is through trade or the movement of 
people.
    Ms. Chavarria. Yes.
    Mr. Gilchrest. Unaware of what they are bringing in.
    Ms. Chavarria. Exactly.
    Mr. Gilchrest. If that is the case--and I am looking at the 
bill that we are trying to move through our system--is there 
something we can do in the legislation to help more clearly 
identify those agencies or NGO groups or local governments, or 
whoever, to be a greater, more efficient front-line defense?
    Ms. Chavarria. I believe there are a lot of groups already 
doing a lot of work, a lot of really good work, and it is 
probably just a matter of getting all of us together and 
increase our efforts. And we don't need to duplicate a lot of 
the efforts.
    The National Wildlife Federation has wonderful programs. 
The Nature Conservancy is a great implementer in a lot of these 
issues. So we just need better collaboration. We need to also 
make a lot of the agencies, the Federal agencies that are not 
aware of these issues, how can they help, because they are 
probably indirectly already doing something.
    Mr. Gilchrest. Federal agencies seem to be unaware of this 
issue?
    Ms. Chavarria. Exactly.
    Mr. Gilchrest. Could you name one of them, or two?
    [Laughter.]
    Ms. Chavarria. Well, particularly in our program, for 
example, we would love to see the Department of Transportation 
being part of our program, and NOAA, the National Oceanic and 
Atmospheric Administration.
    Mr. Gilchrest. The Corps of Engineers I guess could be--
    Ms. Chavarria. Yes, well, we work already with the 
Department of Defense. We would love to see the Corps per se 
working in this effort because they are already doing a lot on 
the ground.
    Mr. Gilchrest. So the number of species that are released 
or become invasive, we can move to an understanding of a 
collaborative effort to be a front-line defense for accidental 
introductions of invasives, to the extent that that is 
possible.
    Is there any effort in the international arena, for 
example, when a number of different countries around the world 
begin finding out that salmon or tilapia or striped bass, or 
whatever, might be good for fish farming because they can make 
large sums of money, is there any effort to help the 
international community understand the potential for a 
nonnative species to escape into the wild and the damage it 
could do?
    Ms. Chavarria. Well, the international community right now, 
there is a consortium called the Global Invasive Species 
Program that is a consortium of many organizations in the 
world, governments of the world, all working right now at the 
level of creating awareness, because a lot of the countries are 
not aware that invasive species are a problem. So if these 
countries don't realize that they do have a problem and they 
are importing this problem somewhere else, we can't do 
anything.
    So right now I think the major emphasis should be in 
awareness. We are doing a really good job within the United 
States, but also how can we do that internationally? But Global 
Invasive Species is doing that. I believe the State Department 
also has been actively engaged in that effort.
    Mr. Gilchrest. Dr. Bartuska?
    Ms. Bartuska. If I could just add to that comment or to 
that response, there is another set of groups that are trying 
to look at multilateral approaches, and that is the plant 
protection organizations, which historically have been more 
agriculture based but increasingly places like the North 
American Plant Protection Organization, the European Plant 
Protection Organization are going beyond just an agricultural 
focus to a natural resource focus. In this country, APHIS has 
been playing a fairly significant role in that, and that is a 
very positive sign in looking at it from a regulatory 
standpoint and having those kinds of dialogs between countries.
    Mr. Van Putten. May I add to the list also?
    Mr. Gilchrest. Yes.
    Mr. Van Putten. You asked in terms of Federal agencies, and 
I would add the U.S. Trade Representative. Your initial line of 
questioning was very astute. If you look at the resolution 
passed by our delegates in 2000, appended to my testimony, you 
will notice there is a section specifically talking about 
international trade and how critical it is that the World Trade 
organization, and particularly the sanitary and phytosanitary 
agreement associated with it, specifically allow as trade 
agreements are negotiated or as countries look at the 
importation of a particular kind of product, allow the invasive 
species issues to be considered and recognize that as a 
legitimate basis on which a country might want to restrict or 
prohibit the importation of not only a product but the packing 
materials, as we have seen, or I think it is the Asian longhorn 
beetle which came in in packing materials.
    In our trade environment program, this has become an 
increasing concern about the need to integrate concern with 
invasive species. And as my colleagues on this panel have 
noted, prevention is the most cost-effective approach. And so 
the USTR should be added to the list of Federal agencies that 
need to be part of addressing this.
    Mr. Gilchrest. Thank you. Excellent suggestion.
    I have one more question, and I guess each of you could 
answer in your different capacities.
    Dr. Bartuska, in the Nature Conservancy, you deal with, I 
would suspect, the private sector and local governments in 
numerous ways. And it seems to me we have discussed the idea 
that $137 billion economic damage done by invasive species, 
give or take a few billion, whatever number you want to look 
at, a very tiny amount of resources are directed between 
Federal and State governments and the private sector, toward 
understanding and trying to fight the invasives problem. And 
much of that effort is very fragmented across the country.
    The Nature Conservancy, in particular, do you see--well, 
actually, everybody on the panel. It seems to me that with the 
limited resources that are available, a collaborative effort is 
fundamental and absolutely necessary if we are going to even 
begin to make a dent into this global problem, a collaborative 
effort between the international community, the trade czar of 
the United States, his or her counterpart around the world, the 
myriad of Federal programs that are out there, and State 
programs. But to a great extent--I was looking at, Dr. 
Chavarria, the map that shows zebra mussels in 1988 and zebra 
mussels in 1999 on page 46 of ``Invasive Species Challenge.'' I 
am not sure. Was that your back, this book, on page 46?
    The point is, unless we involve the decisionmakers of land-
use practices right down to the local jurisdiction, it is going 
to be very difficult to resolve this issue. We can do what we 
can at the borders. Fish and Wildlife, USDA can do what they 
can to keep zebra mussels off boats traveling from Michigan to 
Washington, or whatever.
    In your efforts, do you have a policy, do you see the need 
for a policy to go to the planning and zoning commission of 
each town or county to explain these issues to those people?
    Ms. Bartuska. I think you have hit on one of the major 
challenges we have through invasives because there are so many 
different components to it. Trying to get those all together in 
a more organized way to take some action across jurisdictions 
is fundamental. And I guess what I would suggest is let's look 
at what has been done with the fire programs. Nationwide and 
internationally through several decades of always being able to 
not work together, there are now statutes in place that force 
the integration at the Federal, State, and local level, and to 
try to work across jurisdictions through some common standards 
and some common approaches. I think that is a model for us in 
the invasives community to begin working toward not necessarily 
just a top-down approach, but having at the local level 
understanding of what that issue is, why there is a commitment, 
but also having the carrots and the sticks to make sure that 
the working together occurs.
    The concern I would have, if you limit it to any one 
jurisdiction, is that invasives do know no boundaries. You 
could very rapidly have a gypsy moth infestation in the middle 
of the woods in Washington State that came into a harbor in Los 
Angeles because containers have moved at that great distance 
very rapidly. How do you get a handle on that unless you have 
multi-jurisdictional, cross-boundary collaboration?
    Mr. Gilchrest. I think you do need cross-boundary 
collaboration regionwide, nationwide. But you talk to those 
cousins of the county commissioners that are appointed because 
they are a cousin to the planning and zoning commission at the 
local level about the region, nation, international problem. 
There seems to be a vast army out there of volunteers, 
different groups ready to go out and cut down that purple 
loosestrife that happens to be local or the--I can't remember 
the name of that vine that started in the southern part of the 
United States.
    Ms. Bartuska. Kudzu.
    Mr. Gilchrest. Kudzu. It is now all over the place. People 
are craving to look for projects to do in their local level.
    I know this is broadening this, and it might be beyond the 
scope of what anybody can do in this particular room. But it is 
an area that seems to a large extent is untapped, but it is an 
area that is almost necessary if we are going to deal with 
these kinds of problems.
    Ms. Bartuska. I think that is at the heart of a really good 
early detection and rapid response system, to mobilize all 
those people who do have interests out there to be looking for 
organisms according to some protocols, and to then mobilize 
that incredible workforce to address the problem. That is 
something that the Conservancy has a very strong interest in, 
local action and trying to promote that at the local level. But 
I would also put that within the context of a much more 
integrated, more standardized approach so that we have the 
experts at the table who can help that early detection. That to 
me is the real critical link, once we get past the prevention 
side, which is the best approach, but is probably not 
foolproof.
    Mr. Van Putten. May I speak to that point, sir?
    Mr. Gilchrest. Yes, sir.
    Mr. Van Putten. Your use of the zebra mussel example is a 
good example of where some of the answers lie. In that 
instance, it is anglers and boaters often who have helped 
transport it. So broad public education is necessary to enlist 
people who care about and enjoy our natural resources as allies 
in preventing the spread.
    Second, we have seen through our affiliates and our 
regional offices tremendous interest in volunteers getting 
involved in controlling invasive species. In fact, we have a 
volunteer team at our headquarters in Reston, Virginia, that 
maintains native species and controls the invasive species.
    Third, with respect to local governments, I think you have 
really hit on something important in terms of outreach 
education and enlisting them, because what we have seen across 
the country in a number of instances with our backyard wildlife 
habitat program is homeowners who are landscaping with native 
species, violating local weed ordinances. And you actually see 
local governments with outdated ordinances that favor, you 
know, nonnative type, lawn-looking species, and those who are 
trying in their own backyards to be part of the solution are 
actually in violation. We have actually filed friends of the 
court briefs in cases around the country to try and help 
educate local officials on the need to update those kinds of 
ordinances and to encourage it.
    We see in the West homeowner associations with new large 
developments that include the use of nonnative species that 
require watering, a lot of water. So there are tremendous 
advantages to enlisting local governments to update those kinds 
of ordinances and to encourage the use of native species.
    Mr. Gilchrest. Thank you very much. Don't give up on that.
    I will yield to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman, and thank you very 
much for all of your testimonies. They, of course, were all, I 
guess, roughly on the same side of this issue. I don't know 
anyone who is going to speak on behalf of invasive species 
today.
    But just trying to sort out some issues, I think the 
Chairman has touched on this a little bit at length, and all of 
you have as well; and, that is, trying to understand what the 
relationship is between all the various agencies that are 
involved, whether they go down to the city and county level or 
whether they are at Customs or they are at agricultural 
inspection stations. I have a lot of personal experience with 
trying to deal with the issue of pests. I try to bring betel 
nut into Hawaii, as I go through Customs in Hawaii, and there 
are always a few challenges with that. I have killed a couple 
of brown tree snakes this year already, so there is a lot of 
personal experience in this.
    I am trying to figure out what is the best system for 
dealing with this. It seems that the complexity of all the 
governments that are involved, if we want to--and I think in 
the legislation we pay particular attention to that, where we 
want to make sure that everything we do is incorporated or will 
be consistent with relevant State plans. And we want to make 
sure that we honor that because States have a great deal of 
authority over pest control. And perhaps they have a particular 
point of view on that.
    I just want to get your assessment across the board briefly 
on the panel. Are States up to the challenge in dealing with 
invasive species? Can you make some general characterizations 
about that based on your experience?
    Ms. Chavarria. Not all the States are up to the challenge. 
Some of them are more advanced than others. And we have seen 
through our program, through the Pulling Together Initiative, 
that we work so at the local level, but some States, some 
counties are really up to speed, and they are moving into other 
counties, and they are expanding the program.
    The idea of having these State plans is really, really 
good, but at the same time, within the legislation it worries 
me that a lot of these local efforts might feel a little bit 
left alone when a lot of these plans start to be implemented. 
And maybe through a lot of these local levels, the States, a 
lot of the States that don't have a State plan, can buildup on 
their State plan.
    Mr. Eldredge. I would like to comment about Hawaii. Each of 
the island groups has an invasive species committee, Oahu 
Invasive Species Committee, Maui, Big Island. And each one of 
those, they all are grass-roots operations started by people 
who got together on their own as individuals to go work on 
invasive species problems. There are major volunteer efforts to 
go collect miconia and other things.
    There is also at a city government level the Coordinated 
Group on Alien Pest Species, referred to as CGAPS. CGAPS and 
the invasive species committees now all have some minor support 
from the State legislature to do programs, hire people, get 
field workers going out, and doing things in the field. And it 
seems like a very logical way of getting all the island groups 
within the islands and then coordinated among all the islands. 
We have a list server and so forth. So there is a lot of 
information that goes among all of the groups.
    Mr. Van Putten. If I might respond to that, I think that is 
a critically important question, and it is a question that 
implicates not only the adequacy of resources at the State 
level or their awareness of the problem, but also how do the 
States across their agencies coordinate the management.
    You heard Dr. Tate refer to chronic wasting disease. At the 
National Wildlife Federation we have been very concerned with 
that, with brucellosis in bison, with sylvatic plague in 
prairie dogs as we see exotic diseases in wildlife populations. 
We are very concerned, as Dr. Tate alluded to, that the natural 
resource side of this needs to be considered as well as the 
agricultural side. We are concerned sometimes when the 
immediate response, particularly to the wildlife disease 
situation, is eradicate the wildlife because of concerns about 
agricultural implications or deny public lands to native 
wildlife as a result of concerns for what it might mean for 
cattle that graze there.
    So the coordination particularly at the State level between 
State veterinarians, State agriculture agencies, and bringing 
to the table the State natural resource, the State fish and 
wildlife agencies, to be sure as we look at how we respond in 
this area that the concerns about native ecosystems and fish 
and wildlife populations are also considered as response 
strategies are developed.
    So it is a very finely textured question, and it really 
gets to the integration of management at the State level as 
well as at the Federal level.
    Mr. Underwood. Go ahead, and I have a point I would like to 
make after that point, Dr. Van Putten.
    Ms. Bartuska. I would just like to add to my colleagues' 
comments, which I think are right on point. As a resource, you 
may want to look at the Environmental Law Institute's upcoming 
report where they looked at the State authorities and 
capabilities on invasive species in quite detail. In 
particular, they are setting up three standards, not ascribing 
them to any particular State, but three standards of how might 
a State be structured to address invasive species so that a 
State could then look at how those standards match up to what 
they currently have and decide if that, in fact, is the way 
they want to operate for invasives.
    So I think it gives us some basis for how would States be 
operating and how might they respond to the overall invasives 
problem.
    Mr. Underwood. Well, thank you for those answers, and also, 
thank you, Dr. Eldredge, for pointing out about the importance 
of community involvement. I am always amazed that if you get a 
few community people involved, a few high school students, a 
couple of organizations on Guam--Marine Mania, Kids for Coral--
they really do make a difference in terms of public perception 
and public involvement.
    Going back to the point about how States intersect with 
this and the emphasis given to agriculture, a lot of that 
obviously is driven by the economic impact. And that is why I 
think the figure of $137 billion still comes back, trying to 
figure out how real that figure is and how important that 
impact is, because that is the only--I think it is one of the 
strategies that is available for us involved in this effort to 
try to gain the kind of public attention and institutional 
attention that this issue deserves. And, you know, there has 
been a couple--and I don't want to overburden the Committee 
with examples from brown tree snakes, but, you know, there was 
a period of time when the Discovery Channel ran a series of 
programs on the brown tree snake. The Discovery Channel 
departed from their usual scientific basis for their 
programming and said that brown tree snakes were hanging like 
spaghetti from trees and made really a lot of assertions about 
it which were not founded, were not true. You know, I would 
expect that--and I did get that one time in a supermarket in 
Hawaii when I was going through the line. I saw there was a 
National Enquirer article that said there were 750,000 snakes 
per square mile in Guam. And so I was calculating, how do I 
even get to my car in the morning?
    [Laughter.]
    Mr. Underwood. So I expected that from the National 
Enquirer, but I didn't expect that from the Discovery Channel. 
But the point being that in order to get the kind of attention 
you want, you need to make a dramatic case. You obviously don't 
want to stretch it, and if you did a paper search, any kind of 
documentary search on Guam today, you will see countless 
articles about the brown tree snake, because that seems to 
attract a lot of attention. But I am not sure it is attracting 
the right kind of attention. But the point being that the $137 
billion impact is a real basis upon which we can make the case 
that you pay now instead of paying later. That is an important 
part of this puzzle that we need to get out. I think it is in 
combination with the kind of grass-roots efforts and 
educational efforts which we all know are necessary, so that 
all of our assertions are scientifically based and based on 
real knowledge and based on real facts and figures.
    But when you think of the attention, immediate attention 
that is given to the Mediterranean fruit fly because of the 
enormous impact on agriculture and on people who have money. 
But there is nothing like that, you know, in terms of our own 
efforts.
    So I think we really have to hone in on that as a policy 
issue. I think we have to rely on the kinds of expertise this 
panel brings to the table in terms of understanding that and in 
order to help us make the case.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Ladies and gentlemen, thank you for your testimony, and we 
appreciate your help in this issue. Have a safe trip home.
    Mr. Gilchrest. Our third panel: Mr. John Shannon, State 
Forester, Arkansas Forestry Commission, on behalf of the 
National Association of State Foresters; Mr. John O'Keeffe, 
National Cattlemen's Beef Association; Dr. Terry Riley, 
Director of Conservation, Wildlife Management Institute.
    Welcome, gentlemen.
    Mr. Underwood. Thank you for your indulgence, Mr. Chairman. 
I would like permission to submit for the record these letters 
of support for the proposed legislation, H.R. 3558, from the 
following organizations: Audubon, American Fisheries Society, 
National Wildlife Federation, Trout Unlimited, Western 
Governors' Association, Wildlife Society, American Plant 
Alliance, and Chair of the Department of Land and Natural 
Resources, State of Hawaii.
    Thank you.
    Mr. Gilchrest. Without objection, so ordered, Mr. 
Underwood.
    [The letters and statements referred to follow:]
    [GRAPHIC] [TIFF OMITTED] 78207.001
    
    [GRAPHIC] [TIFF OMITTED] 78207.002
    
    [GRAPHIC] [TIFF OMITTED] 78207.003
    
    [GRAPHIC] [TIFF OMITTED] 78207.004
    
    [GRAPHIC] [TIFF OMITTED] 78207.005
    
    [GRAPHIC] [TIFF OMITTED] 78207.006
    
    [GRAPHIC] [TIFF OMITTED] 78207.007
    
    [GRAPHIC] [TIFF OMITTED] 78207.008
    
    [GRAPHIC] [TIFF OMITTED] 78207.009
    
    [GRAPHIC] [TIFF OMITTED] 78207.010
    
    [GRAPHIC] [TIFF OMITTED] 78207.011
    
    [GRAPHIC] [TIFF OMITTED] 78207.012
    
    [GRAPHIC] [TIFF OMITTED] 78207.013
    
    [GRAPHIC] [TIFF OMITTED] 78207.014
    
    [GRAPHIC] [TIFF OMITTED] 78207.015
    
    [GRAPHIC] [TIFF OMITTED] 78207.016
    
    [GRAPHIC] [TIFF OMITTED] 78207.017
    
    [GRAPHIC] [TIFF OMITTED] 78207.018
    
    [GRAPHIC] [TIFF OMITTED] 78207.019
    
    Mr. Gilchrest. Gentlemen, thank you very much for coming, I 
guess this morning still. Mr. Shannon, you may begin, sir.

STATEMENT OF JOHN T. SHANNON, STATE FORESTER, ARKANSAS FORESTRY 
  COMMISSION, ON BEHALF OF THE NATIONAL ASSOCIATION OF STATE 
                           FORESTERS

    Mr. Shannon. Yes, sir. I guess we have the Irish brigade 
ready to mop up your testimony this morning.
    Mr. Gilchrest. Shannon, O'Keeffe, Riley. That is right.
    [Laughter.]
    Mr. Gilchrest. Are there any Scots out there?
    Mr. Shannon. You will get the truthful and helpful 
testimony now, Mr. Chairman.
    Mr. Gilchrest. Thank you very much. I knew we could.
    Mr. Shannon. Thank you, Mr. Chairman.
    Mr. Gilchrest. We could sing an Irish tune.
    [Laughter.]
    Mr. Gilchrest. I am sure you all know a couple, but we will 
do that a little bit later over lunch.
    Mr. Shannon. Thank you for inviting the State foresters to 
come and testify today. We appreciate it very much.
    I listened to the Chairman's introductory comments and 
those of several other members, and it is right on the button. 
Plainly, we all agree that invasives are harmful, there is a 
problem, and we need to do something about it.
    I think 3558 is a good step in the right direction. I want 
you to know the State foresters support this bill. We like the 
bill. We have submitted written comments. What I would like to 
do is just talk to the Committee for a few minutes and very 
briefly give you a few of our suggestions on how to improve the 
bill.
    Mr. Gilchrest. We will submit the comments to the record.
    Mr. Shannon. Thank you, sir.
    We have six suggestions for improving the bill:
    No. 1, State foresters think we should expand the scope of 
the bill. The bill ought to protect native plants in addition 
to game and fish species. USDA ought to be involved. You have 
heard this before. The U.S. Forest Service has a really 
crackerjack team of forest health protection specialists, and 
the Animal and Plant Health Inspection Service has experience 
in rapid response to invasives. We need to get them involved. 
They ought to be helping us meet the objectives of this bill.
    The demonstration projects are currently limited to the 
National Wildlife Refuges, and since the problems exist on all 
Federal lands, we think all Federal lands ought to be eligible 
for the demonstration projects.
    The last expansion of the scope includes going from 
strictly native habitats to including agricultural lands. The 
bill plainly is concerned about environmental harm and economic 
harm, and if you really want a fuller assessment of the 
economic harm, I think we need to take a look at what invasives 
are doing to agricultural land.
    The second suggested change to the bill, let's really 
emphasize the role of the States. Mr. Chairman, the State 
foresters are on the ground. We have employees in every 
forested county in the United States, so we know all these 
county commissioners you were talking about. We know all of 
these forest landowners. I really think we could help make a 
difference on the ground. And I would suggest that the State 
foresters or State game and fish officials become involved 
right from the start, and that includes drafting the grant 
applications and reviewing the grant applications and help 
deciding priorities for the grants.
    The third suggestion, for 3558, no matter how much money 
you pour into it, it is not going to protect a single acre or 
kill one of these brown tree snakes I have heard about. You 
need people to apply for grants, get the money, and do the work 
on the ground. You need folks on the ground making the efforts, 
and what that means is, please make the administration as 
simple as you possibly can and still be accountable.
    For instance, if the grant application comes to us and it 
is the size of a small-town telephone book, you know, we have 
got a problem. You are scaring away people who want to help 
with the problem.
    In the Aldo Leopold grants, there is a requirement for a 
Federal partner. In some parts of the country, that requirement 
is pretty artificial, particularly in the South where the 
private lands that have real problems with invasives are miles 
and miles away from the nearest Federal landowner. So we want 
partnerships, but I think there should be some flexibility in 
the Leopold grants to have partnerships with the Nature 
Conservancy or local forest landowners associations, for 
instance.
    On this next suggestion, I may differ a bit with an earlier 
witness today. Definition number 7 in the bill speaks to 
environmental soundness, and 7(B) I think pretty directly 
suggests that using chemicals is environmentally unsound. And I 
think that is incorrect. And if it is environmentally unsound, 
you are virtually out of luck trying to get a rapid response 
grant. So I am suggesting to the Committee that if, after a 
real scientific review, there is a decision to apply chemicals 
in strict accord with label instructions, that is 
scientifically sound and we ought to allow the use of 
chemicals. We need to keep our eyes on the prize, Mr. Chairman. 
We are going after these invasive plants. When we go after 
gypsy moth in Arkansas--and it has been a pretty successful 
eradication effort--I am glad we are able to use chemicals.
    Finally, State foresters, since we do live pretty close to 
nature, we like to get stuff done. So I hope--we are not asking 
for more money, but I hope with the amount of money available 
we can shift it, to the extent science and accountability 
allows, away from assessments and more to work on the ground, 
things that are measurable: the Leopold grants, the rapid 
response grants, and the demonstration projects.
    The staff of the National Association of State Foresters is 
delighted to work with the Committee staff on any language that 
may need to be revised, and I thank you so much.
    [The prepared statement of Mr. Shannon follows:]

Statement of John T. Shannon, State Forester of Arkansas, on Behalf of 
              the National Association of State Foresters

INTRODUCTION
    On behalf of the National Association of State Foresters (NASF), I 
am pleased that Chairman Gilchrest and Chairman McInnis have asked us 
to testify on this bill. NASF is a non-profit organization that 
represents the directors of the State Forestry agencies from all fifty 
states, eight U.S. territories, and the District of Columbia. The State 
Foresters manage and protect state and private forests across the U.S., 
which together encompass two-thirds of the nation's forests.
    I am representing NASF in my role as Chairman of the Forest Health 
Protection Committee. The spread of harmful non-native species is an 
important issue to the State Foresters, private landowners, and our 
partners. NASF applauds the efforts undertaken in this bill to address 
the pervasive problem of invasive species on both public and private 
lands. We support the bill, and believe that it can be strengthened 
even more.
    In this testimony, I would like to address the topics you raised in 
your invitation to testify: (1) the need for the measure; (2) whether 
it can become an effective mechanism to deal with the growing problem 
of invasive species on public and private lands; (3) if the proposed 
funding levels are adequate to address this problem; and (4) our 
recommendations on any proposed changes that could improve this 
proposal.
NEED
    There is clearly a call for measures to control, mitigate, and 
eradicate invasive species on forestland and elsewhere. Invasive 
species are a growing concern among foresters and other land managers. 
Indeed, addressing the spread of exotics is one of the objectives of 
the NASF Forest Health Protection Committee, and it is of high priority 
for the Committee this year. We agree with the inclusion of U.S. 
Territories and Tribal lands in the definition of ``state'' as these 
lands have specific needs for control of nonnative invasive species.
EFFECTIVENESS
    This bill provides an important mechanism to deal with the growing 
problem of invasive species, and we believe it can be strengthened in 
several critical ways.
              emphasize role of state and local government
    State forestry and other state and local agencies play key roles in 
invasive species management. State forestry agencies, in particular, 
have longstanding relationships with private landowners and federal 
partners, and we can assist in the development of priorities and 
selection of grantees. Our technical experts on the ground, who 
interact daily with private landowners, have first-hand understanding 
of local needs and solid relationships with landowners and local 
government officials. This places state forestry agencies in an ideal 
position to help ensure that on the ground management stemming from 
this bill will be effective in dealing with invasive species when and 
where they threaten forested habitats.
                 expand involvement of federal agencies
    If we are to successfully tackle the problem of invasive species, 
we need to devote resources to those federal lands and programs where 
the greatest progress on the ground can be made. Most importantly, the 
bill must include the U.S. Department of Agriculture (USDA), 
specifically the U.S. Forest Service (USFS) and the Animal and Plant 
Health Inspection Service (APHIS), as key partners. The USFS, one of 
our traditional partners, has an excellent Forest Health Protection 
Unit that deals with invasive species issues on forested land. The USFS 
is also home to Cooperative Forestry, a vital link between private 
landowners and cost share assistance that funds management on private 
land. Invasive species remain core management issues for the National 
Forest System and Research and Development within the USFS, as well. 
Likewise, APHIS, which has a rapid response program in place, has the 
capacity to quickly detect and respond to exotic pests that threaten 
agricultural crops and natural habitats. In addition to the National 
Wildlife Refuge System, there are other lands managed by the Department 
of Interior, and also Department of Defense lands, which contain 
habitats threatened or affected by invasive nonnative species. It is 
essential to identify these federal agencies as partners in this 
legislation.
    Building upon existing federal programs that deal with invasive 
species issues, and encouraging agencies that control large amounts of 
public land to participate, will most effectively address harmful 
nonnative species across public and private lands. We need the 
flexibility to detect and rapidly respond to invasive species when and 
where they occur, and limiting the demonstration projects to wildlife 
refuges, which is a small geographic subset of federal lands, may not 
ensure that our limited federal dollars will be spent in the most 
effective and efficient manner.
          keep grants accessible / keep administration simple
    The process of applying for, reviewing, and administering grants 
must be as simple as possible. If grants are too demanding, key 
applicants will not apply for these much needed funds. Our experience 
has shown us that some states, especially in the South, lack adequate 
staffing and other resources necessary to participate in the programs 
identified in this bill. In order to achieve the greatest good on the 
ground, the requirements of the bill must provide accessibility to all 
partners.
    In addition, we believe the Aldo Leopold Native Heritage Grant 
Program would be more effective if the requirement for a federal 
partner were expanded to allow projects with either state or federal 
partners. Quick and aggressive action on state and private lands could 
actually prevent the spread of invasive species to federal lands. The 
requirement that grants may only be issued for projects with adjacent 
federal lands or waters may disqualify important projects.
                   broaden scope of state assessments
    NASF recommends broadening the State Native Species Protection 
Assessment Grant Program to allow and encourage the states to assess 
the impacts of invasive species on the broad range of sectors that 
contribute to their own states' economy and the national economy, 
rather than just impacts to native habitats. Our experience at both the 
state and national level has shown that a broad range of sectors (e.g., 
agriculture, tourism, and transportation) contribute to the propagation 
and spread of invasive species. These sectors hold the promise for 
innovative and incentive-driven solutions, and these constituents 
should be at the table in developing state, regional, and national 
assessments and solutions. The preparation of statewide assessments 
will help identify strategic regional approaches to priority invasive 
species. This will also bring more public support for the investments 
needed to tackle invasive species problems over the long run--all of 
which will help native habitats. State assessments will be helpful to 
states and regions that have not already conducted assessments. 
However, to effectively address the protection of natural habitats and 
processes, a broader assessment of the risk from invasive nonnative 
species is needed, which may include altered habitats such as 
reservoirs or other lands and waters that are no longer in a natural 
condition.
              expand definition of environmental soundness
    Defining ``environmental soundness'' as only projects that 
emphasize non-chemical measures may restrict the control and 
eradication of some invasive species, especially plants. It is 
important to recognize that, in some cases, chemicals provide the most 
effective and environmentally sound technique for control and 
eradication.
           recognize invasive species are long term problems
    Long term programs with ongoing funding are needed if we are to 
successfully control, mitigate, and eradicate harmful nonnative species 
on public and private lands. The two to four year limit for grants, 
along with the 2008 sunset for the Act, do not provide the levels of 
continuous public investment that are needed to fully address these 
problems. This is due to both the extended survival or dormancy of 
seeds and the continuous threat of new species introductions from 
overseas.
FUNDING
    NASF believes this bill will improve efforts to take action on the 
ground in areas where the problems of invasive species are most 
prevalent, if we can focus primarily on rapid action. When management 
actions are hampered by assessment processes, the problems associated 
with invasive species intensify. The successful management and control 
of invasive species requires the ability to quickly and aggressively 
respond to emerging threats. We would like to see a greater proportion 
of funding directed towards the Rapid Response Program and the Aldo 
Leopold Grants Program, where on the ground management happens.
RECOMMENDATIONS
    In summary, NASF believes that this bill provides an effective 
mechanism for dealing with the growing problem of invasive species on 
public and private lands and waters, and it will be strengthened 
through the following recommendations:
    <bullet> LEmphasize the important role that state and local 
government can play in setting priorities and selecting grantees.
    <bullet> LExpand the involvement of federal agencies within the 
U.S. Department of Agriculture that have expertise and programs in 
invasive species management to include the USFS and APHIS.
    <bullet> LExpand the involvement of federal agencies and 
departments controlling large acreages of public land, including the 
Bureau of Land Management and other land management agencies in the 
U.S. Department of Interior, the USFS in the U.S. Department of 
Agriculture, and the U.S. Department of Defense.
    <bullet> LKeep the requirements for the programs as simple as 
possible, which will encourage the participation of states and other 
key partners.
    <bullet> LBroaden the scope of state assessments to include the 
impact of invasive nonnative species on states' economies and altered 
lands that are no longer in a natural condition.
    <bullet> LExpand the definition of ``environmental soundness'' to 
include the use of chemicals where needed to control and eradicate 
invasive species.
    <bullet> LAlong with considering reauthorization of the bill in 
2008, we encourage you to extend grants beyond the two to four year 
limitation currently detailed in the bill.
    <bullet> LShift the balance of funding towards on the ground 
management, particularly the Rapid Response program. There is value in 
being ready to handle outbreaks of invasive species before they occur.
CONCLUSION
    NASF looks forward to the opportunity to work with the 
Subcommittees and the sponsors to develop and carry out an effective 
program to address the spread and control of nonnative species. We 
commend representatives Rahall, Gilchrest, and Underwood for your work 
on this important legislation. We are willing to work with you to 
refine specific language as the bill progresses, and we appreciate the 
opportunity to provide testimony and answer your questions today.
                                 ______
                                 
    Mr. Gilchrest. Yes, sir. Thank you very much.
    I had a problem with bagworms on some evergreen trees. 
Quite a few of them.
    Mr. Shannon. There are still lots of them.
    Mr. Gilchrest. This was about 10 years ago when my kids 
were teenagers, and I gave them a penny for every--well, they 
were younger than teenagers. I gave them a penny for every 
bagworm.
    Mr. Shannon. Perhaps they should apply for a grant.
    Mr. Gilchrest. Well, they thought they had a grant.
    [Laughter.]
    Mr. Gilchrest. But I was running out of money, and we 
weren't affecting those bagworms at all. So we did have to use 
some chemical application, according to the label, and it 
worked.
    We have a vote on, and what I would like to do, the 
Committee will take about a 15-minute recess, and then we will 
come back and continue. Thank you very much.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come to order. Thank 
you very much for your immense tolerance and patience of the 
democratic system here in Washington, where we don't stop for 
breaks or lunch except in very erratic, sporadic ways. So we 
appreciate your indulgence. We will work through this, and I 
would hope that all of you will go have a very pleasant, 
relaxed lunch when this is over.
    Mr. O'Keeffe?
    Mr. O'Keeffe. Thank you--
    Mr. Gilchrest. Do all of you know where your heritage is in 
Ireland?
    Mr. O'Keeffe. County Cork.
    Mr. Shannon. County Cavan.
    Dr. Riley. Tralee.
    Mr. Gilchrest. Tralee. The Rose of Tralee.
    Mr. O'Keeffe?

     STATEMENT OF JOHN O'KEEFFE, NATIONAL CATTLEMEN'S BEEF 
              ASSOCIATION AND PUBLIC LANDS COUNCIL

    Mr. O'Keeffe. Thank you. Mr. Chairman, distinguished 
members of this Committee, on behalf of the National 
Cattlemen's Beef Association and the Public Lands Council, 
thank you for your interest in my comments concerning invasive 
species. My wife and I, our two sons, and my mother operate our 
family ranch in eastern Oregon. We run our cow-calf operation 
on about 16,000 private deeded acres and lease about 120,000 
acres from the BLM and Forest Service. Therefore, I have a 
vested interest in my own land as well as the management of 
Federal lands surrounding my private acreage.
    NCBA and PLC appreciate the attention the Committee has 
directed to invasive species issues and also appreciate the 
opportunity to speak to the joint Subcommittees on H.R. 3558. 
We all know the economic and environmental harm caused by 
invasive species and have urged the Federal Government to 
recognize invasive species as a priority issue and to develop a 
national effort to address the problem. We support the 
Executive order on invasive species and the efforts of the 
National Invasive Species Council. We have also worked with the 
Congress through appropriations and other legislative processes 
to direct resources to and focus attention on invasive species 
issue.
    H.R. 3558 is important legislation, as it elevates the 
significance of invasive species and underscores the need for 
Congress to focus more attention on this issue. It strengthens 
the ability for Federal, State, and private entities to develop 
partnerships and to coordinate activities and also emphasizes 
rapid response to outbreaks of harmful nonnative species. We 
are encouraged by the efforts of this Committee to provide 
mechanisms for States and private landowners to manage all 
invasive species.
    However, we are concerned that H.R. 3558 duplicates current 
programs and competes with ongoing efforts that direct 
resources to problem areas not adequately addressed. There are 
at least six programs within the Department of Interior that 
offer grants or funding to Federal agencies, States, or private 
landowners to protect, conserve, or restore fish and wildlife 
habitats. Current funding levels do not come close to 
addressing the noxious weed problem on public and private 
lands.
    For instance, for 2003, BLM plans to treat 245,000 acres 
for weeds. This acreage is the same as last year and 7,000 
acres less than in 2001. I find it interesting that, for an 
agency managing 264 million acres of Federal land, nearly one-
eighth of our country's land mass, only one acre out of every 
1,100 acres will be treated.
    Current estimated annual loss to the productivity of 
agricultural lands are as high as $20 billion. New money should 
be directed to a program that gives States maximum flexibility 
to direct funds where they can be utilized by local 
decisionmakers most effectively. Federal red tape and 
administrative requirements must be minimized to ensure that 
the dollars are getting to the ground where they are needed 
most.
    For Federal lands, we also need a programmatic 
environmental impact statement so the agencies can deal with 
all weeds at all times rather than one at a time.
    I have been fighting weeds on our ranch all my life, but my 
individual efforts are not enough. If more effort, particularly 
Federal funding, is not devoted to combat invasive species, we 
are all fighting a losing battle, and rural communities such as 
my own will face severe economic crisis.
    The best method of fighting these invasions is to act 
locally. Currently, we have a limited amount of resources. We 
need to have additional funding diverted to the local level to 
assist those who know best how to manage land and treat the 
problem. I feel H.R. 3558 fails to devote adequate resources to 
the local level and burdens any effort with red tape and 
bureaucracy. Also, H.R. 3558's call for a State assessment 
front-loads work on an issue that has already been defined by 
local weed management groups. These groups ask that Congress 
provide Federal funding while streamlining the process. We 
simply just need more Federal dollars reaching the local level.
    In closing, we support the goals of H.R. 3558 and the 
effort of this Committee to address invasive species issues. 
However, we are concerned that H.R. 3558 will not adequately 
address the invasive species problems, particularly noxious 
weeds. Nonetheless, we look forward to working with the 
Committee to ensure that our efforts to manage and control 
these harmful species are targeted in the most efficient manner 
possible.
    Thank you for the opportunity to testify before your 
Committee. I will gladly answer any questions you may have.
    [The prepared statement of Mr. O'Keeffe follows:]

  Statement of John O'Keeffe, Adel, Oregon, on behalf of the National 
         Cattlemen's Beef Association and Public Lands Council

    Chairman Gilchrest, Chairman McInnis, Chairman Hefley and 
Distinguished Members of the House Resources Committee:
    On behalf of the National Cattlemen's Beef Association (NCBA), the 
trade association of America's cattle farmers and ranchers, and the 
marketing organization for the largest segment of the nation's food and 
fiber industry, and the Public Lands Council (PLC), a non-profit 
organization representing over 27,000 federal grazing permittees, thank 
you for your interest in my comments concerning invasive species.
    I am a member of NCBA, the PLC and the Oregon Cattlemen's 
Association (OCA). I also chair the Public Lands Committee of the 
Oregon Cattlemen's Association and PLC's Sage Grouse Committee. My wife 
and I, our two sons and my mother operate our family ranch in south 
central Oregon. We run our cow-calf operation on about 16,000 private 
deeded acres and lease about 200,000 acres from the Bureau of Land 
Management (BLM) and the United States Forest Service (USFS). 
Therefore, I have a vested interest in what happens on my own land as 
well as how federal lands surrounding my private acreage are managed.
    NCBA and PLC appreciate the attention the Committee has directed to 
invasive species issues and also appreciate the opportunity to speak to 
these joint subcommittees on H.R. 3558, the Species Protection and 
Conservation of the Environment Act. We have long been aware of the 
economic and environmental harm caused by invasive species and have 
urged the Federal Government to recognize invasive species as a 
priority issue and to develop a national effort to address the problem. 
We support Executive Order 13112 on Invasive Species. We support the 
National Invasive Species Council (NISC) that was established by the 
Executive Order and provided input into the preparation of ``Meeting 
the Invasive Species Challenge'' (the national management plan 
developed by NISC), through participation in the Invasive Species 
Advisory Council. We have also worked with Congress through the 
appropriations and other legislative processes to direct resources to, 
and focus attention on, invasive species issues.
    Our priorities for invasive species legislation are perhaps easier 
to articulate than they are to implement, but we nonetheless believe 
that every effort needs to be made to provide a strong foundation for 
efficient distribution of federal funds, strive to avoid duplication, 
coordinate activities between Federal and State agencies and private 
landowners, and provide the flexibility for decisions to be made 
locally where the problems arise.
    H.R. 3558 is important legislation, as it elevates the significance 
of invasive species and underscores the need for Congress to focus more 
attention on this issue. It strengthens the ability for Federal, State, 
and private entities to develop partnerships and coordinate activities, 
and also emphasizes rapid response to outbreaks of harmful nonnative 
species. We are encouraged by the efforts of this Committee to provide 
mechanisms for States and private landowners to manage all invasive 
species.
    We do have several concerns with the legislation that I will 
summarize below:
    H.R. 3558 is designed to provide grants to States for activities to 
protect, conserve, and restore native fish, wildlife, and their natural 
habitats on Federal lands. We are concerned that the legislation 
duplicates current programs and competes with on-going efforts that 
direct resources to problem areas not adequately addressed. Federal 
dollars are appropriated every year to fund programs that protect, 
conserve, and restore fish and wildlife and their habitats. For 
example, the Partners for Fish and Wildlife program directs funds for 
wildlife habitat restoration and we are concerned that H.R. 3558 may be 
duplicative of these efforts. Another example is the Department of 
Interior's Landowner Incentive Program (LIP). For fiscal year 2003, the 
Department budgeted an additional $10 million over last year's budget 
for a total budget request of $50 million. The LIP provides landowners 
with technical and financial assistance to private landowners for 
habitat protection and restoration. Yet another example is the 
Cooperative Conservation Program, proposed funding for this program is 
$50 million. This program offers grants to states for habitat 
protection, wetlands restoration and riparian area protection. Other 
examples where H.R. 3558 essentially duplicates current efforts of 
Department of Interior programs (and proposed funding amounts in the 
Department's fiscal year 2003 budget request) include programs such as 
the North American Wetlands Conservation Fund ($43.56 million), 
Cooperative Endangered Species Conservation Fund ($91 million), and the 
National Wildlife Refuge Fund ($14.558 million). All these programs 
offer grants or funding to states, private landowners or federal 
agencies to protect, conserve or restore fish and wildlife habitats.
    However, existing sources of funds for addressing invasive weeds do 
not come close to addressing the needs we are facing on public and 
private lands. There currently is no existing independent federal fund 
to address these needs. In BLM fiscal year 2003 budget request, the 
agency plans to treat 245,000 acres. This acreage is the same as last 
year and 7,000 acres less than 2001's total acres. I find it 
interesting that for an agency responsible for managing 264 million 
acres of federal land--or nearly one-eighth of the country's landmass--
only one acre out of every 1,078 acres will be treated. To me, this 
number is shocking. More federal dollars need to allocated for treating 
more acreage. While the cattle industry recognizes the threats posed by 
all invasive species and supports all efforts to manage them, our 
primary concern is the threat posed by invasive weeds. Weeds are also 
the invasives where I have the most personal experience, as reflected 
in this testimony.
    The Federal Interagency Weed Committee has estimated that annual 
losses in the productivity of agricultural lands are as much as $20 
billion. These losses are personal to cattle producers--so each of us 
has a vested interest in the health of the land that we own or manage 
and in minimizing financial impacts caused by invasive weeds. New money 
should be directed to a program that gives states maximum flexibility 
to direct funds where they can be utilized by local decision makers 
most effectively. Federal red tape and administrative requirements must 
be minimized to ensure that the dollars are getting to the ground where 
they are needed most. For federal lands, we also need a programmatic 
environmental impact statement so the agencies can deal with all weeds 
at all times, rather than one at a time.
    I have been involved with fighting non-native species, particularly 
noxious weeds, for about 20 years now. I helped organize our county's 
weed board, the Lake County Weed Board. In fact, I am still serving as 
vice chairman. The principle function of the weed board is to advise 
our county commissioners on weed management and what can be done to 
help fight the struggle. About five years ago, I also helped establish 
the Warner Weed Working Group. I still serve as the chair of this 
group. This group seeks to target weed control and eradication through 
cost-share efforts, education and awareness. My involvement also 
includes assisting landowners and other cattle producers by commenting 
on federal land management proposals to ensure non-native invasive 
species, such as noxious weeds, are adequately addressed in the 
proposed action.
    As I stated earlier, I have been fighting weeds on my own land for 
over 20 years. I spray, learn what I can about control and management 
and even break out the shovel to eradicate weeds such as the Canadian 
thistle. But my individual efforts are not enough. In my area, we are 
currently facing invasions of whitetop, perennial pepperweed and 
Russian knapweed. If more effort, particularly federal funding, is not 
devoted to combat invasive species, we are all fighting a losing battle 
and rural communities such as my own will face severe economic crises.
    If there is one thing I have noticed in all my years of fighting 
these non-native species is that if something is not done fast we will 
lose a lot of land that will never be recovered. For instance, fighting 
cheatgrass is a lost cause. One might as well try to empty the ocean 
with a bucket. Cheatgrass is a prime example of what can happen if 
proactive measures are not taken immediately.
    The best method of fighting these invasions is to act locally. 
Currently, we have a limited amount of resources. In order to maximize 
resources, I have found that resources are best utilized by those who 
intuitively know the geography and flora of an area--for instance, 
those who have been running up and down fields and ditches like myself 
and other members of my weed board and weed working group. Furthermore, 
we need to have additional funding diverted to the local level to 
assist those who know best how to manage the land and treat the 
problem--whether the land is federal or private.
    I feel H.R. 3558 fails to devote adequate resources to the local 
level and when H.R. 3558 provides resources to the local level, any 
effort is burdened with red tape and bureaucracy--two things I find 
totally unnecessary in the fight against invasive species. In 
particular, for a project to qualify under Section 5(e), objectives 
include establishing a science-based restoration of fish and wildlife 
habitats. I am not a wildlife biologist but I feel this section 
requires expertise beyond my capability. My expertise comes from living 
on the land, working on the land, and nurturing the land in order to 
reach its highest sustainability. In other words, application of common 
sense local know how.
    H.R. 3558 expands bureaucracy and red tape with the state 
assessment requirements of Section 4 and places an additional burden on 
states. Many states currently have weed management programs and directs 
state dollars to local weed management boards. My own state of Oregon 
customarily follows this practice. My basic thoughts are we do not need 
more bureaucracy or red tape, or more government for that matter. What 
we need is more federal funding to get more money on the ground, using 
local folks, to attack the problem effectively.
    Because invasive species know no boundaries, any Federal program 
must allow for funds to be directed where they are most needed. H.R. 
3558 appears to limit use of funds to only those projects on State and 
private lands that are adjacent to Federal lands and also requires 
there be a Federal partner to be eligible for a grant under the Also 
Leopold Native Heritage Grant Program. NCBA and PLC believe that our 
limited Federal dollars should be directed to projects that hold the 
most promise for success, whether they are on Federal lands, State 
lands or private lands, or any combination thereof.
    One provision of H.R. 3558 I am particularly interested in is 
Section 7, the Rapid Response Capability to Harmful Non-native species. 
When it comes to fighting invasive species such as noxious weeds, I 
feel we need to attack the problem as if it were a wildfire, move 
resources into the problem area, eradicate the problem and don't leave 
until the threat is eliminated.
    In closing, the National Cattlemen's Beef Association and the 
Public Lands Council support the goals of H.R. 3558 and support the 
efforts of this Committee to address invasive species issues. However, 
we are concerned that H.R. 3558 will not adequately address the non-
native invasive species problems, particularly noxious weeds. 
Nonetheless, we look forward to working with the Committee to ensure 
that our efforts to manage and control these harmful species are 
targeted in the most efficient manner possible. Thank you for the 
opportunity to testify before your committee. I will gladly answer any 
questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. O'Keeffe.
    Mr. Riley?

STATEMENT OF TERRY Z. RILEY, DIRECTOR OF CONSERVATION, WILDLIFE 
                      MANAGEMENT INSTITUTE

    Dr. Riley. Thank you, Mr. Chairman, for inviting the 
Wildlife Management Institute to speak before this Committee on 
noxious weeds and House bill 3558. I am not going to read my 
comments today. We have been over a lot of the stuff already, 
and if you will, I please ask that my written comments be 
submitted for the record.
    Mr. Gilchrest. Without objection.
    Dr. Riley. We have talked a lot about how many millions of 
acres and maybe hundreds of millions of acres are impacted by 
noxious weeds and other invasive nonnative species throughout 
our country. However, just looking at the invasion rate, how 
fast things are deteriorating from the state we are right now, 
the estimate, as best we can determine, is about 10,000 acres 
per day.
    Now, 10,000 acres a day may seem big to some people, and 
perhaps to Mr. O'Keeffe 10,000 acres isn't an awful lot to 
graze on out in Oregon. But a lot of people might have trouble 
with understanding what 10,000 acres is. But if you think about 
a football field, within the bounds of a football field, that 
is about an acre. So 10,000 of those lined up is about the rate 
that weeds spread each year. Now, 10,000 football fields lined 
up in a row equals approximately 567 miles in length. It would 
take an 11-man team quite a long time to score a hit in that 
field, obviously, because that is a tremendous amount of area. 
And that is the issue. Just holding the invasion rate so that 
it is not increasing any throughout a year, it takes that kind 
of an effort, which requires an awful lot of money.
    This is such a big problem that nobody can get their arms 
around it very well, and it is perplexing to anybody out there 
who is dealing with recreation, with ranching, with farming, 
with all the other impacts that this has, including fish and 
wildlife habitats that are, again, almost immeasurable. We 
don't know what impacts these are having on all the native 
species we have in the country. But we do know species like 
ground nesting birds have experienced the longest long-term 
decline of any species of birds in North America. Nearly 180 
species of birds are declining fairly rapidly, and eventually 
these birds, particularly those that nest on the ground, are 
being impacted so severely that many will have to be listed as 
threatened or endangered within our lifetimes, if we don't 
somehow have a system or process to treat noxious weeds and 
other invasive species.
    Now, obviously H.R. 3558 takes the most important first 
step, and that is to organize from a national level a process 
that we can go out and actually begin to treat this with a 
coordinated effort throughout the entire country. The next 
phase, as you have done with this bill, is to empower the 
States to coordinate effort among their agencies and all the 
stakeholders within the State to begin to identify where those 
areas are located, where the hot spots occur, and what the real 
problems are. Then hopefully, those State efforts will 
prioritize where the money needs to go.
    If we just throw the money up in the air and hope it lands 
in the right spot, we are going to do what we have been doing 
for years and years and years. We have heard other people say, 
well, we think we might be able to control it here or there. 
But I can guarantee you, anybody who has actually treated 
noxious weeds on the ground--and I was a certified pesticide 
applicator for 5 years in South Dakota in one of my previous 
jobs with the Forest Service, and I can tell you, all the years 
that we worked there putting 10,000 pounds of Tordon down every 
single year on that district, we did not stop the spread of 
those weeds. Ten thousand pounds of Tordon every single year on 
that district did not stop it.
    So it is going to take a major effort to get this stopped. 
And the only way we are going to know the cost of that is to go 
out and pull together the State planning efforts, conduct an 
assessment of what problems they have, and then let the States 
empower the local watersheds, the local counties. We have 3,000 
counties in this country right now that need to be working 
toward addressing this problem.
    I have a few things that I would like to recommend, just 
specifics, and they do talk just specifically about a 
coordinated effort from the very top to the very bottom and get 
as many stakeholders at the table as possible--the State 
wildlife agencies, agricultural departments, the Federal 
agencies, the local governments, and all of the other people 
out there who are the local people, the ranchers that Mr. 
O'Keeffe said are out there and have to deal with this on an 
everyday basis. Their lives and their livelihood are affected 
terribly by this. There are no bright spots on the horizon for 
a lot of these people, and we have to somehow make the American 
people feel that we are actually going to address this.
    Thank you.
    [The prepared statement of Mr. Riley follows:]

  Statement of Dr. Terry Z. Riley, Director of Conservation, Wildlife 
                          Management Institute

Introduction
    Messrs. Chairmen, I am Terry Z. Riley, Director of Conservation for 
the Wildlife Management Institute (WMI). The Wildlife Management 
Institute was established in 1911, and is staffed by professional 
wildlife scientists and managers. Our purpose is to promote the 
restoration and improved management of wildlife and other natural 
resources in North America.
    Thank you for giving us the opportunity to offer our insights on 
H.R. 3558, the Species Protection and Conservation of the Environment 
Act. The debate that will occur on invasive weeds is not a do or don't 
proposition. The economic viability of farms and ranches is dependent 
on a national, coordinated effort to control the spread of invasive 
weeds, and H.R. 3558 will serve as a catalyst to bring the affected 
parties together to ensure success. Production of wildlife, 
agricultural crops, and livestock already have been compromised, and 
farmers and ranchers are losing billions of dollars each year to weeds.
    WMI commends all three Subcommittees for initiating this dialog. 
The seriousness of the invasive weeds issue cannot be overstated, and 
we urge the Subcommittees to complete work on H.R. 3558, or similar 
legislation, that will enable our country to begin aggressive and long-
term control of invasive weeds.
    We are concerned about the accelerating spread of invasive exotic 
plants, or ``weeds'', on public and private land. Some estimates 
indicate that exotic invasive plants are spreading at a rate of about 
10,000 acres per day. The following examples of increased weed 
populations on private, state, and federal lands illustrate the 
devastation underway: In Montana spotted knapweed increased from a few 
plants in 1920 to 5 million acres today; in Idaho rush skeleton weed 
went from a few plants in 1954 to 4 million acres today; in Northern 
California yellow starthistle increased from 1 million acres in 1981 to 
about 15 million acres today. Imagine how concerned and vocal ranchers, 
sportsmen, and environmentalists would be if 5 million acres of 
rangeland or backcountry had been bulldozed or paved, or locked up and 
lost for any human use. In many of these cases we are talking about 
destruction of land that will be very hard, if possible at all, to 
restore to its former condition. Our country has spent millions 
restoring the integrity of our waters under the Clean Water Act, but 
invasive weeds represent a challenge as great to that integrity as what 
we faced from water pollution. Thousands of watersheds on public and 
private land are undergoing the greatest permanent short-term 
degradation in their recorded history--with fish and wildlife habitat 
and livestock forage suffering the greatest losses.
    Local cooperative approaches offer the best opportunity to prevent 
and control weeds within a specific watershed, particularly when they 
address problems identified in a State or regional assessment. In a few 
states, Weed Cooperatives or County Weed Boards are bringing land 
owners and operators, utility companies, county and state road 
departments, State fish and wildlife agencies, federal land management 
agencies, businesses, conservation organizations and public land users 
together to attack this insidious plague of weeds.
    Federal and private funds through the National Fish and Wildlife 
Foundation's ``Pulling Together Initiative'' already are providing 
local cooperatives with the funds they need to develop and implement 
long-term plans to control invasive weeds within local watersheds. Over 
200 weed control cooperatives have been supported by the ``Pulling 
Together Initiative'' since 1998, however, more than 250 weed 
cooperatives submitted project proposals to the National Fish and 
Wildlife Foundation that went unfunded. A wide array of partners have 
contributed millions of dollars to these cooperative weed-control 
ventures, leveraging nearly 2 non-federal for each federal dollar 
committed to the program. The Wildlife Management Institute has been 
the grantee on one of these ``Pulling Together Initiative'' projects 
since 1998 that has brought together 14 federal, state, county and 
private partners to collectively control the spread of purple 
loosestrife up the Missouri River and its tributaries in Nebraska and 
South Dakota. These diverse groups enthusiastically come together to 
fight a common enemy. Unfortunately, in most areas and in most 
watersheds, these cooperative efforts to control and eradicate weeds 
are not yet in place, or have not been able to secure funding.
    The technology is available to cooperatively bring the spread of 
invasive weeds down over the long term to a level approximating ``no 
net increase''; along with making good progress at controlling and 
restoring some large infestations. However, the cost to apply and 
coordinate the delivery of this technology will not be low. Without 
substantial long-term federal funding that is leveraged with state and 
private resources, vast areas will become degraded permanently as these 
invasive weeds spread across our country.
    Only now are we beginning to see the danger that lies ahead. There 
is great economic efficiency in increasing investments now to keep 
relatively healthy watersheds from becoming severely infested by weeds. 
Enormous increases in investments will be needed to restore land once 
it is seriously infested. With prompt action now, these disasters can 
be avoided, or at least effectively managed.
    Over the past 2 years, our nation experienced some of the most 
devastating wildfires we have seen in some time; burning nearly 8 
million acres and destroying immense amounts of public and private 
property. While most of those fires were ignited naturally by lighting 
strikes, the fuels that carried those fires often were invasive weeds, 
such as cheatgrass, that have invaded millions of acres of our western 
rangelands.
    Congress immediately responded to these disastrous fires by 
allocating nearly 2 billion dollars in fiscal year 2001 to aggressively 
deal with the wildfire hazards across the country on public and private 
land. While exotic invasive weeds do not destroy homes as do 
catastrophic wildfires, and thus do not receive the interest of the 
Press, they are doing just as much if not more permanent damage to the 
lives and livelihood of farmers and ranchers over a much larger area of 
our country.
Recommendations
    House Bill 3558 lays the foundation to aggressively address the 
invasive weeds catastrophe, but we have a few concerns that you might 
consider as you continue to develop this legislation. Specifically, as 
your deliberations on H.R. 3558 proceed, we ask that you include 
provisions in the bill to provide:
    <bullet> LSufficient and long-term funding on public and private 
land;
    <bullet> LA watershed-based approach to controlling weeds;
    <bullet> LCoordinated weed control projects on public and private 
land;
    <bullet> LAssurances that all nonnative invasive weeds are 
addressed;
    <bullet> LRequirements to leverage non-federal funds;
    <bullet> LOpportunities to fund multi-state weed control projects;
    <bullet> LExpanding the role of the National Fish and Wildlife 
Foundation; and
    <bullet> LA primary focus on wildlife and fish species that are 
experiencing long-term declines, but are not yet listed as threatened 
or endangered under the Endangered Species Act.
    We strongly urge the Subcommittees to address the issue of annual 
and long-term funding needed to control invasive nonnative weeds on our 
Nation's public and private lands. Local cooperative efforts to control 
invasive nonnative weeds must have some assurances that funding will be 
available to help plan and implement their programs. Federal land 
management agencies also must have the funds to control weeds on our 
public lands, and there must be methods developed to ensure 
coordination between weed control efforts on public and adjacent 
private lands.
    We strongly urge the Subcommittees to commit at least $100,000,000 
per year for nonnative invasive weed control projects on private land, 
and to commit at least 5 years of funding.
    We also urge the Subcommittees to allocate sufficient funds to the 
federal land management agencies to control noxious weeds on public 
lands. For example, the Bureau of Land Management needs at least $15 
million in fiscal year 2003 to implement their weed control program, 
and they will need at least $30 million per year once the program is 
fully implemented. Congress provided $8 million in fiscal year 2001 to 
the USDA Forest Service to control invasive weeds on 150,000 acres, but 
already there are over 8 million acres of the agencies' 192 million 
acres that are infested by nonnative invasive weeds. Much more funding 
is needed to stop the spread of weeds on federal land.
    We are concerned that H.R. 3558 may reduce funding for other 
natural resource programs within the Department of the Interior (DOI) 
in an attempt to balance the federal budget. However, without clearly 
identifying the source of funding (new money or transfer from other 
programs), we believe there will be attempts to raid existing wildlife 
programs within DOI. We recommend that H.R. 3558 clearly identify the 
source of funds necessary to protect and restore wildlife and fish 
habitats that have been impacted by invasive weeds.
    Most successful efforts to control weeds have been those that 
address the problem within an entire watershed. We recommend that the 
H.R. 3558 be modified to require that all programs and projects using 
federal dollars to control weeds must be based on a watershed planning 
and implementation approach.
    There are many nonnative invasive weed control programs already in 
existence on public and private land. However, many of these programs 
do not bring together all private and public agencies, organizations 
and stakeholders to mount a coordinated effort to control weeds. 
Government funding for control of invasive weeds on private land 
traditionally has come from the various federal and state departments 
of agriculture. We are concerned that federal funding through the 
Secretary of the Interior might disrupt these traditional cooperative 
ventures. We recommend that the Secretaries of the Interior and 
Agriculture be equally involved in the planning and implementation of 
any nonnative invasive weed control program on public and private 
lands.
    We are concerned that efforts to control invasive weeds might only 
focus on the widespread infestations in the western states. Our 
Nation's waterways often provide the avenues by which invasive weeds 
spread throughout a watershed, and many of our waterways (rivers, 
streams, lakes and wetlands) are completely choked and dysfunctional 
because of weed infestations. We urge the Subcommittees to address all 
nonnative invasive weeds in H.R. 3558, including those weeds in 
waterways, wetlands, farmlands, pasture and haylands and our western 
rangelands.
    Almost all local agencies, organizations, and stakeholders are 
concerned about invasive weeds, and most are eager to commit their own 
time and resources to provide control. The National Fish and Wildlife 
Foundation (NFWF) has demonstrated that it can leverage millions of 
dollars from a wide array of private and public partners to control 
weeds through its Pulling Together Initiative. We recommend that H.R. 
3558 recognize the proven model for leveraging private resources for 
weed control that has been successfully employed by the NFWF, and to 
continue to use the NFWF as an integral player in achieving the goal of 
promoting greater cooperation to control harmful weeds.
    Often nonnative weeds infestations cross boundaries created between 
administrative, political and state entities. We are concerned that 
H.R. 3558 will not accommodate nor encourage cooperative efforts across 
all of these boundaries, such as a multi-state weed control project. We 
recommend that the H.R. 3558 provide funding to a broad array of 
cooperative ventures to control invasive weeds, including multi-state 
projects.
    Finally, we are concerned that H.R. 3558 may not address adequately 
the effects of invasive weeds on fish and wildlife species that are in 
serious decline. The habitats of a large number of native fish and 
wildlife species are being destroyed by invasive weeds. Species like 
the sage grouse are in serious decline, but they are not yet threatened 
or endangered. Sage grouse are almost completely dependent on vast 
areas of sagebrush, but millions of acres of these habitats are being 
destroyed by invasive weeds. Without a clear focus on declining species 
in H.R. 3558, we are concerned that these native species will be 
overlooked in favor of those that are listed as threatened or 
endangered under the Endangered Species Act (ESA). We recommend that 
the purpose of H.R. 3558 be modified to include the objective of 
placing priority on restoring habitats of native fish and wildlife 
species that are in serious decline, but are not yet listed as 
threatened or endangered under the ESA.
Concluding Remarks
    We thank the Chairmen and members of the Subcommittees for inviting 
the Wildlife Management Institute to testify on H.R. 3558. Economic 
losses to invasive weeds are staggering, and we are very concerned that 
wildlife and other natural resources will suffer irreparable harm if we 
do not act now. We fully support a broad array of active and 
cooperative weed control ventures on public and private lands, 
particularly for native fish and wildlife habitats in serious decline. 
We believe significant and long-term funding is needed to assist these 
partnerships in controlling weeds within all of our Nation's 
watersheds. Funding for invasive weed control on our public lands is 
woefully inadequate to stop the spread of these insidious pests, but we 
would not support funding for any new weed control program that would 
be at the expense of other federal natural resource programs or 
existing cooperative weed control partnerships. Messrs. Chairmen, we 
respectfully request that our written and oral comments presented here 
today be entered into the permanent written record of this hearing.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Riley.
    Mr. O'Keeffe, what kind of invasive problems are you 
experiencing right now? And how are you working to deal with 
it?
    Mr. O'Keeffe. Right now in our watershed, we have got three 
main noxious weeds. They are perennial pepperweed, Russian 
knapweed, and white top.
    Mr. Gilchrest. What was the last one?
    Mr. O'Keeffe. White top. Hoary cress is another name for it 
perhaps in this region. Anyway, we have got a local working 
group that prioritizes the effort, and we do a triage to decide 
how to spend our limited resources at the top of the watershed 
where there is most chances of spreading, keep them on the 
properties that are already infested, deal with the satellite 
infestations.
    Mr. Gilchrest. Where do they come from?
    Mr. O'Keeffe. You know, it almost just showed up, like the 
haying equipment sometimes will spread it, wildlife spreads it. 
We have got an island on our ranch. There is an island. It is 
one of the 16 places in the United States for white pelican's 
nest. There has never been a cow on that island or a piece of 
machinery. But one day I happened to be out there, and the 
pepperweed had gotten there. It has to be a wildlife thing in 
that instance.
    But it just comes in. Tourists--or it gets there and gets 
spread by roads and machinery, wildlife, livestock to some 
extent. You know, I think livestock sometimes gets too much 
blame because people like myself, we know what the weeds are. 
We know where our livestock goes. We watch for the weeds. It is 
the wildlife and the tourists that come out of the blue that I 
think create some of the situations that are so hard to get a 
handle on, or weeds you are not familiar with show up in the 
middle of nowhere.
    Mr. Gilchrest. You said you have a working group.
    Mr. O'Keeffe. We do.
    Mr. Gilchrest. Who is in that working group, and where do 
the funds come from that pay for that eradication?
    Mr. O'Keeffe. The working group, the landowners in the area 
and the Federal agencies, the State, the Nature Conservancy, 
they are a landowner but also as an environmental conservation 
organization, are involved. The BLM, the Bureau of Land 
Management, is providing the administration for our group so 
that a rancher doesn't have to go in the evening doing the 
grant writing and stuff. We apply for grants. We have gotten a 
grant from the State of Oregon. The type of funding--that is 
the beauty of these local groups. A lot of these problems that 
the bill addresses, like addressing the fact of how the weed 
got there, you know, these working groups, they are not--you 
are getting the caliber of input where you are not going to put 
the horse back in the barn and leave the door open. That is the 
beauty of these working groups.
    I know a lot has been said about a nationally coordinated 
effort, and that is important. But if these working groups are 
funded and have successes, they will sell themselves. And with 
the time lost in providing a national coordination, maybe that 
will be offset by the effectiveness of the early response.
    But, anyway, a lot of these issues are taken care of by a 
good, effective local working group.
    Mr. Gilchrest. That is the area that you say the bill 
duplicates.
    Mr. O'Keeffe. The area that the bill duplicates is mainly 
in like habitat restoration for wildlife. There are other areas 
that that is funded from--or there are other possible areas of 
funding for that.
    Mr. Gilchrest. You also said that the most important thing 
now, which is what you just described, is to put money on the 
ground, I guess into those local working groups that will use 
it right away, instead of front-loading the State 
bureaucracies.
    Mr. O'Keeffe. Yes. You know, our group, we already know 
what we need, and the groups in neighboring counties, I would 
hope that they would also. And the process of the State 
assessment, while that would be valuable, I think that some of 
these groups are ready to go now. And these groups are busy 
people with volunteer efforts, and adding the bureaucracy to 
this effort, I think we could be more effective by--I mean, we 
have already done our homework. If you fund us real 
efficiently--
    Mr. Gilchrest. You will get going.
    Mr. O'Keeffe. We will have to compete with other groups for 
our grant, and if they are better organized and better able to 
spend the money, that will be recognized through the grant 
process.
    Mr. Gilchrest. Mr. Riley, having dealt with something 
similar in the Dakotas, would you agree with Mr. O'Keeffe? I am 
not sure how we would massage the legislation, just talk to the 
appropriators separately to get that funding on the ground 
immediately for that type of rapid response.
    Dr. Riley. Well, right now we do already have money 
flowing, as Dr. Chavarria talked earlier. Obviously the 
National Fish and Wildlife Foundation and a variety of other 
agencies are making many millions of dollars available in the 
last 5 or 6 years to do this. And there are other entities out 
there doing the same thing, and this bill should support those 
entities to continue on the processes and the wins they have 
already made. They have already jumped through many of the 
administrative hoops that Mr. O'Keeffe is speaking of, and I 
think we need to build on those and not somehow cripple them by 
some new level of bureaucracy that we are dealing with.
    I think local efforts are--that is the way we are going to 
stop it. There is no doubt about it. When I made my statements 
with respect to national and State efforts, I just don't think 
you can do it just one county at a time without dealing with 
all the counties around it, too. I think that is the value of 
the local efforts that are going on right now, and obviously 
Mr. O'Keeffe sounds like he is in a very progressive one. I 
have been in one in South Dakota and Nebraska controlling 
purple loosestrife from moving up the Missouri River, and we 
are holding the line where the Missouri River flows from South 
Dakota into Nebraska, and that is funded through the National 
Fish and Wildlife Foundation's Pulling Together Initiative. 
That money comes from six different agencies, Federal agencies.
    But we also have many others that are partners in that 
program, including Indian tribes, local governments, and many 
ranchers and farmers along the Missouri River. They all know 
the problem. It is coming up the stream--I mean up the river, 
and all of its tributaries, and we are doing everything we 
possibly can to hold it right where it is. And that may be all 
we accomplish. Those efforts are where the rubber meets the 
road.
    If this process somehow circumvents them or slows them 
down, I think it won't be good, so we need to address that part 
of it, too.
    Mr. Gilchrest. We want to make sure that the language fits 
the need of all areas of the country, especially your 
particular situation, Mr. O'Keeffe, if you already have a 
working group put together, you have a rapid response team. We 
think that the bill has the capacity to do that now. The last 
thing we want to do is create another layer of bureaucracy and 
complicated paperwork. And I think Mr. Shannon talked about 
making some of these applications for grants user-friendly, 
which is what we want to ensure will happen.
    Mr. Riley, you said you used--I am just curious, what was 
it Tordon?
    Dr. Riley. Tordon, t-o-r-d-o-n.
    Mr. Gilchrest. Tordon, to eradicate noxious weeds--in South 
Dakota?
    Dr. Riley. The Black Hills of South Dakota.
    Mr. Gilchrest. Black Hills of South Dakota. It is a nice 
place, right down the street from Wal-Drug, I guess.
    Dr. Riley. Yes, that is right.
    [Laughter.]
    Mr. Gilchrest. Just don't let anybody on Route 90 come to 
the Black Hills. You probably won't have those tourist problems 
with invasive weed.
    We are talking about eradicating or holding the line. You 
made some comment about using Tordon, and every year you had to 
continue to use Tordon. What would you do differently if you 
had adequate resources to eradicate those invasive weeds?
    Dr. Riley. Well, in the early 1980's, when we were using 
Tordon, the biological agents we have talked about, such as 
other insects or things that might affect the plants, were not 
very well developed. We were trying to use those at the time. 
But it is going to take an integrated approach.
    Our problem is without some kind of guidance or control 
about how you put the stuff down--in other words, if you don't 
have a whole bunch of partners working on the same problem, you 
can throw your dollars over here and throw your dollars over 
there--and 10,000 pounds of Tordon might sound like a lot of 
Tordon, but we probably could have used 100,000 pounds to try 
to just keep up with the invasion that was going on in that 
district.
    It is a very insidious problem. So the only thing I can say 
is from what I have learned from the early 1980's to now, we 
need a coordinated effort, just like Mr. O'Keeffe is talking 
about. And those parties that are involved in that, all those 
stakeholders need the money to get it done on the ground. They 
will get better with every succeeding year they are on it, but 
it is not something that is going to just be a 5-year program. 
This has to continue on for a long time because it is a very 
significant plague throughout the whole country, and we have to 
stay with it. And these organizations, the longer they work, 
the better they will get at it, the more technology we will 
have, and we will get it eventually, but we just have to stay 
with it.
    Mr. Gilchrest. So you feel that as the groups become more 
sophisticated, the relationship strengthens, the science 
becomes more readily available, that other than--there would be 
a whole myriad of ways that we could eradicate a lot of these 
invasive species. Is there the same kind of effort, Mr. 
O'Keeffe, on your ranch with the three invasives that you 
described? Could you tell us the kind of damage they do? And is 
there some mechanism to plant native species that could outpace 
the invasive species?
    Mr. O'Keeffe. Of course, the problem with these invasive 
species is that the native species aren't set up to compete 
with them. We don't have at this point a viable biological 
control for any of those species right now. And another thing 
that concerned me about 3558 is that it is appeared to 
discourage the use of pesticides, or herbicides, and I think it 
is so important to realize that on the satellite infestations, 
if they just start out, a timely application the first season 
with a herbicide eliminates that issue. And that stops further 
satellite infestations, and it prevents a situation where the 
population spreads and then you have got different landowners 
using herbicides in a much larger amount later.
    So I think one thing to encourage is the real timely use of 
appropriate herbicides on the early populations rather than 
just a statement discouraging the use of pesticides. But we do 
try to use an integrated approach. We wish we had a biological 
agent. But we try and do all the right things, not transport 
hay out of fields where the weeds are known. We feed it in 
those fields. Those types of things are definitely a part of 
our plan.
    Mr. Gilchrest. I apologize, Mr. O'Keeffe. I forgot about a 
meeting that I had with two other members at 1 o'clock, and I 
think it is about 5 after 12 now, so that gives us about--is it 
5 after 12:00? Oh, it is 5 after 1. We have another 50 minutes, 
I guess, I am just kidding.
    [Laughter.]
    Mr. Gilchrest. Two other quick questions then. On invasives 
or controlling invasives, whether or not you use chemicals, 
does land-use practice have anything to do with controlling the 
invasives or contributing to the problem? In the East--I come 
from an agricultural area, and a lot of times the rotation of 
the crops can have a very positive impact on the control of 
noxious weeds, invasive weeds, or things like that. And I am 
not sure if you have the same rotation out there being on a 
ranch instead of a grain farm.
    Mr. O'Keeffe. You are very right that the practices can 
have a lot to do with the weeds. The pepperweed issue that we 
are faced with, we have got native meadows that we manage for 
hay and livestock grazing, and the pepperweed tends to try and 
create a monoculture in those. And, of course, a crop rotation 
isn't appropriate there. They are still the same vegetative 
community they were at settlement times, basically. So you 
don't have the opportunity to do a crop rotation, but you have 
other opportunities to try and minimize the disturbance, like 
ditchwork and any disturbances tend to create a foothold for 
weeds. So you have got to monitor those things carefully.
    Mr. Gilchrest. Thank you.
    Mr. Shannon, I guess the last question. You gave us six 
things that you would recommend. The first one was to expand 
the scope of the bill and include USDA, demonstration projects, 
public and private land projects, and things like that. Could 
you just mention in a little more detail that process and who 
we should include in the legislation to cover, let's say, 
somebody like Mr. O'Keeffe and the problem Mr. Riley described, 
and even some of the situations, if it is appropriate, that we 
heard about in Hawaii?
    Mr. Shannon. Of course, I deal with forest land and forest 
landowners, and I am not the right person to answer questions 
about a cattleman's concerns. I am sorry. But I can tell you 
that for forest land, we have had as traditional partners for 
many decades the U.S. Forest Service, and for a long time, 
APHIS, the Animal and Plant Health Inspection Service.
    When gypsy moth had one of these satellite infestations in 
Arkansas, we went to APHIS. They were a tremendous technical 
help for us, and a little financial help for us. And it was 
very successful, use of chemicals to go in there quickly, 
intelligently applied, and you will have a tough time finding a 
gypsy moth in Arkansas today.
    A good part of the reason is APHIS helped us right from the 
start, and the forest health people at the Forest Service 
worked with us thereafter on monitoring. So that is why I 
think--there is a little language in the bill that says rapid 
response is undeveloped in America now. I don't think that is 
accurate. It may be underdeveloped. It needs to be better 
developed. But we do have some rapid response.
    I know APHIS has rapid response. It sounds like Mr. 
O'Keeffe's group is ready for rapid response. So let's get USDA 
involved. Let's hold their feet to the fire. They need to help 
us meet the objectives of the bill.
    Mr. Gilchrest. All right. Well, gentlemen, thank you very 
much. Your testimony has been very helpful to all of us, and I 
hope the rest of your day is a good day in Washington. At this 
point we will insert statements submitted for the record.
    [The prepared statement of Mr. McInnis follows:]

   Statement of Scott McInnis, Chairman, Subcommittee on Forests and 
                             Forest Health

    Expanding global trade and travel have increased the risk of 
introducing new, exotic organisms. Certain non-native insects, 
diseases, plants, and animals have had significant impacts on national 
forests and other forest lands in recent years and have proven 
difficult to control. Without natural enemies in the forests of the 
U.S., many exotic organisms have spread at alarming rates. Others have 
spread slowly, becoming established residents before the need for 
control is evident.
    A recent brochure by the Forest Service, America's Forests: 1997 
Health Update, describes the effect of invasions of exotic pests on our 
forests:
    ``Large numbers of nonnative (exotic) species are displacing 
naturally occurring species in a wide array of ecosystems. They often 
have no natural control factors and thus can cause extensive damage. 
Their effects have been devastating over the past century--including 
the demise of the American chestnut due to chestnut blight, decreases 
in white pine from blister rust, loss of hardwoods to gypsy moth, and 
the killing of elms by Dutch elm disease. More recently, exotic plants 
such as mellaleuca and miconia have invaded large acreages in Florida 
and Hawaii, respectively. These exotic plants have displaced the native 
vegetation, thereby affecting wildlife habitat.''
    A number of cooperative relationships exist to address the 
identification, management and control of exotic pests. For example, 
many state and federal agencies undertake cooperative inventory, 
monitoring and control programs. Forest Service research stations and 
universities conduct research to reduce the impact and improve control 
of introduced pests. However, there is more we can and should do to 
protect and restore our lands. I look forward to hearing from the 
witnesses and partners here today to explore additional mechanisms to 
aggressively treat the invasive species problems before our Nation.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 1:11 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
